<html>
<title> - ANNUAL REFUGEE CONSULTATION</title>
<body><pre>[Senate Hearing 106-716]
[From the U.S. Government Printing Office]






                                                        S. Hrg. 106-716
 
                      ANNUAL REFUGEE CONSULTATION

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

   EXAMINING THE PRESIDENT'S PROPOSED ANNUAL REFUGEE ADMISSIONS AND 
                    ALLOCATION FOR FISCAL YEAR 2000

                               __________

                             AUGUST 4, 1999

                               __________

                          Serial No. J-106-43

                               __________

         Printed for the use of the Committee on the Judiciary

                    U.S. GOVERNMENT PRINTING OFFICE
67-480 CC                   WASHINGTON : 2000



                   SENATE COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                 ______

                      Subcommittee on Immigration

                  SPENCER ABRAHAM, Michigan, Chairman

ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
CHARLES E. GRASSLEY, Iowa            DIANNE FEINSTEIN, California
JON KYL, Arizona                     CHARLES E. SCHUMER, New York

                   Lee Liberman Otis,  Chief Counsel

                 Melody Barnes, Minority Chief Counsel

                                  (ii)



                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Abraham, Hon. Spencer, U.S. Senator from the State of Michigan...     1
Kennedy, Hon. Edward M., U.S. Senator from the State of 
  Massachusetts..................................................     3

                    CHRONOLOGICAL LIST OF WITNESSES

Statement of Julia V. Taft, Assistant Secretary of State, Bureau 
  of Population, Refugees, and Migration, Department of State, 
  Washington, DC; accompanied by Lavinia Limon, Director, Office 
  of Refugee Resettlement, Department of Health and Human 
  Services; Jeffrey Weiss, Director, International Affairs, 
  Immigration and Naturalization Service; and Kathleen Thompson, 
  Director, Refugee Branch, Immigration and Naturalization 
  Service........................................................     4
Panel consisting of Mary Kortenhoven, Missionary to Sierra Leone, 
  Christian Reformed Church, Grand Rapids, MI; Binta Bah, refugee 
  from Sierra Leone, Grand Rapids, MI; Nicholas A. DiMarzio, 
  Bishop of Camden, NJ, and chairman, Committee on Migration, 
  National Conference of Catholic Bishops, Camden, NJ; and 
  Ralston H. Deffenbaugh, Jr., president, Lutheran Immigration 
  and Refugee Service, Washington, DC, on behalf of the American 
  Council for Voluntary International Action.....................    21

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Bah, Binta:
    Testimony....................................................    24
    Prepared statement...........................................    27
Deffenbaugh, Ralston H., Jr.:
    Testimony....................................................    48
    Prepared statement...........................................    50
DiMarzio, Nicholas A.:
    Testimony....................................................    29
    Prepared statement...........................................    31
        Joint Report on the Resettlement of Sudanese Youth In 
          Kakuma Camp, Kenya.....................................    37
Kortenhoven, Mary:
    Testimony....................................................    21
    Prepared statement...........................................    23
Limon, Lavinia: Prepared statement...............................    18
Taft, Julia V.:
    Testimony....................................................     4
    Prepared statement...........................................    15


                      ANNUAL REFUGEE CONSULTATION

                              ----------                              


                       WEDNESDAY, AUGUST 4, 1999

                               U.S. Senate,
                       Subcommittee on Immigration,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:09 p.m., in 
room SD-628, Dirksen Senate Office Building, Hon. Spencer 
Abraham (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SPENCER ABRAHAM, A U.S. SENATOR FROM 
                     THE STATE OF MICHIGAN

    Senator Abraham. We will call the hearing to order. I want 
to welcome everybody to this hearing on the President's fiscal 
year 2000 proposal for annual refugee admissions. We will try 
to cover a fair amount of ground here today and hear from, I 
think, some very important witnesses with testimony of concern 
to all of us who focus on these issues.
    To begin, I will make an opening statement. Certainly, if 
Senator Kennedy or any of the other members of the subcommittee 
attend, we will offer them the opportunity to make their 
statements, as well, or include them in the record, and then we 
will go to our first panel.
    Today, we are here to discuss, as I said, the President's 
fiscal year 2000 proposal for refugee admissions. Under the 
law, before the start of each fiscal year, the President or his 
cabinet-level designee must provide the House and the Senate 
Judiciary Committees with the President's proposed 
determination of refugee admissions and allocation. It is then 
the job of the Senate and the House committees to provide input 
and advice as to the numbers and the geographic distribution of 
such refugee admissions. In the event of an unforseen emergency 
refugee situation of the kind which we have already had this 
year, the President, after consultation with Congress, may 
increase the numbers during a fiscal year.
    Our nation has seen a 40 percent drop in proposed refugee 
admissions since 1993. This committee has expressed some 
disappointment at this development in previous hearings and in 
communications which have been sent by myself and Senators 
Kennedy, Hatch, and Leahy. We have also expressed concern that 
artificial obstacles to refugee interviews and inattention to 
America's humanitarian and foreign policy objectives have 
prevented persecuted individuals from being processed and 
resettled in the United States. Consequently, we were pleased 
in fiscal year 1998 that the decline in the refugee ceiling was 
finally reversed, although I have to confess some 
disappointment when in 1999 the ceiling fell once again.
    In the middle of fiscal year 1999, the tragic and brutal 
suppression in Kosovo thrust the refugee issue into the 
spotlight. In this emergency situation, to relieve individual 
suffering and political tension in Macedonia, up to 20,000 
Kosovar refugees were permitted to come to the United States. 
Approximately half that number ultimately arrived because a 
welcome change in the Kosovo situation allowed many Kosovar 
refugees to return to their homes.
    I am pleased that the administration proposes to raise the 
fiscal year 2000 refugee ceiling to 90,000. It is my hope that 
this increased support for refugee admissions will not be 
transitory, but rather part of a consistent and sustained 
effort to demonstrate American leadership in this refugee 
policy area.
    I believe the Kosovo crisis showed once again that America 
is a nation filled with generous people who are proud of our 
tradition of helping refugees, and I am proud of the generosity 
displayed by the people in my home State of Michigan during 
this time of need. When food was scarce, Gerber Baby Products, 
which is based in Fremont, MI, donated over 21,000 cases of 
baby food products for the infants of refugees who fled Kosovo. 
And when the time came for Kosovar refugees to be welcomed to 
America, I witnessed remarkable community involvement in 
Detroit, as people of all faiths came together to help refugee 
families who had been brutally driven from their homes. In 
Lansing, MI, the solidarity with refugees was so strongly felt 
that youngsters donated money they had saved for roller 
skating. Two 9-year-old boys gave one cargo truck driver 
$23.50. The boys had earned the money by selling their toys, 
all so that they could help Kosovar refugees.
    While statistics will be discussed, today's hearing is, at 
least in our minds, dedicated in no small measure to those who 
help refugees and to the refugees themselves, because behind 
every refugee, there is a tragic story, and on our second 
panel, we will hear one such story from Binta Bah. But we will 
also hear from those who assist refugees, including a 
missionary who helps with assimilation efforts in Michigan.
    Not all refugee situations make the evening news, and we 
should never lose sight of that. We must seek to help those who 
are persecuted regardless of whether TV cameramen and 
photographers have ventured to that part of the globe. I think 
the crisis in Sierra Leone, the troubled nation which we will 
hear about in our second panel, has received far too little 
attention, given the horrors that people have suffered there.
    It is sobering to think that nearly 400 years have passed 
since America's first refugees, the Pilgrims, came to these 
shores. Some time after the Pilgrims came, another group of 
refugees arrived, and, undoubtedly, there were people who 
questioned whether there was enough room for those refugees in 
this new land. I personally hope soon for a day when we will 
move beyond that type of divisiveness so that all refugees can 
be sure of being welcomed when they make their way here without 
acrimonious debate. The response to the Kosovo crisis and the 
support for Sierra Leone refugees and others being received in 
our country and in my home State of Michigan should, I think, 
make all of us hopeful that the dawn of that new day will soon 
be upon us.
    At this point, as I say, if other members arrive, we will 
hear their opening statements, but I think that at this stage 
we will turn to our first panel of witnesses. We will hear 
again from Julia Taft, who is the Assistant Secretary of State 
of the Bureau of Population, Refugees, and Migration. She is 
accompanied by Lavinia Limon, who is the Director of the Office 
of Refugee Resettlement for the Department of Health and Human 
Services; by Jeffrey Weiss, who is the Director of 
International Affairs; and Kathleen Thompson, who is Director 
of the Refugee Branch for the Immigration and Naturalization 
Service.
    Officials from the INS and HHS will not be giving spoken 
testimony here but have submitted written testimony and will be 
available to the subcommittee members to answer questions, 
either today or in written form that might be subsequent. At 
this time I would like to enter the prepared statement of 
Senator Edward M. Kennedy.
    [The prepared statement of Senator Kennedy follows:]

            Prepared Statement of Senator Edward M. Kennedy

    I commend Senator Abraham for convening this important hearing on 
refugees, and I join in welcoming our distinguished, witnesses.
    I commend the Administration for its decision to propose a refugee 
admissions ceiling of 90,000 for fiscal year 2000, a welcome, increase 
of 12,000. Many of us have been concerned by the continuing decline in 
refugee admission ceilings in recent years, falling more than 40 
percent from 132,000 in 1993 to 78,000 in 1999 at a time when the 
number of refugees dislocated by civil war and global turmoil has 
significantly increased.
    Today, there are more than 13 million refugees in the world. 
Reductions in our refugee admission ceilings have sent the wrong signal 
to nations that engage in persecution. Our opposition to religious 
intolerance in the former Soviet Union and other Newly Independent 
States is undermined by reducing refugee admissions in the face of 
intolerance and ongoing persecution. It also sends the wrong signal to 
refugees--that they are not welcome here. I am pleased to see that with 
this proposed increase, the message we will be sending is that refugees 
are welcome.
    I also commend the Administration, and especially Julia Taft, for 
the sustained and successful response to the Kosovo refugee crisis. 
Kosovo was one of the largest refugee crises since World War II. The 
vast exodus placed a huge strain on neighboring nations. By providing 
humanitarian aid and by resettling Kosovar refugees in the United 
States, we have reduced the burden on those nations, and set an example 
for other countries. Also, by bringing refugees into the United States, 
rather than holding them in detention in Guantanamo, we have set an 
example for the humane treatment of refugees everywhere. We must not 
abdicate our leadership role. We must do more to assist humanitarian 
efforts and to help Kosovar refugees returning to their homes.
    As we continue to help the Balkans, we cannot ignore other regions 
of the world, especially Africa. There are six million refugees and 
internally displaced persons in Africa, and they have faced horrors and 
brutality similar to those in Kosovo. The attention and resources 
devoted to Kosovo should be the example we follow in Africa. Increasing 
the fiscal year 2000 ceiling for Africa to 18,000 is a good first step. 
We know that the United States alone cannot begin to solve the enormous 
and complex issues of Africa, but the United States is clearly in a 
position to do more.
    The United Nations High Commissioner for Refugees, Mrs. Ogata, 
recently told the U.N. Security Council that there is ``a perception of 
disparity'' in the assistance being given to African refugees, compared 
to the world's response in Kosovo. The United States has the ability to 
correct this unacceptable perception. Our role as the leading world 
power, with extraordinary resources, demands that we do more. 
Certainly, the plight of the African refugees deserves greater 
attention and a greater response by the United States and other 
nations.
    Another recent development that merits praise is the 
Administration's decision to amend the requirements for waivers 
requested by approved refugees who test positive for HIV. Prior to this 
change, such refugees were in danger of forced repatriation or 
detention and persecution in the country of first asylum. This change 
in policy is consistent with our humanitarian traditions and our 
international obligations.
    America's leadership on this issue is critical. Other nations 
carefully monitor our refugee policies as a guide in establishing their 
own policies. With this significant change, HIV-positive individuals 
who have a well-founded fear of persecution will be able to find 
protection in the United States and join their families.
    Americans support the rescue and resettlement of refugees fleeing 
religious, political and ethnic persecution. There is strong bipartisan 
support in Congress for the refugee program. We should work together to 
increase refugee admissions, and to achieve the goal of strengthening 
U.S. international leadership on refugee policy.
    I welcome Assistant Secretary of State Julia Taft and the other 
witnesses today, and I look forward to their testimony.

    At this point, we will turn to Secretary Taft. We look 
forward to hearing her opening statement. As you all know, and 
for those of you who have not testified before, we have a 
little clock system here. Typically, the light system is set 
for about 5 minutes, but we do want to hear what you have to 
say and so we will let you do your full statement. Take 
whatever time you need, Secretary Taft, and we look forward to 
hearing your comments at this time.

   STATEMENT OF JULIA V. TAFT, ASSISTANT SECRETARY OF STATE, 
 BUREAU OF POPULATION, REFUGEES, AND MIGRATION, DEPARTMENT OF 
STATE, WASHINGTON, DC; ACCOMPANIED BY LAVINIA LIMON, DIRECTOR, 
OFFICE OF REFUGEE RESETTLEMENT, DEPARTMENT OF HEALTH AND HUMAN 
   SERVICES; JEFFREY WEISS, DIRECTOR, INTERNATIONAL AFFAIRS, 
IMMIGRATION AND NATURALIZATION SERVICE; AND KATHLEEN THOMPSON, 
   DIRECTOR, REFUGEE BRANCH, IMMIGRATION AND NATURALIZATION 
                            SERVICE

    Ms. Taft. Thank you very much, Mr. Chairman. I am really 
pleased to participate at today's hearing on the President's 
proposed fiscal year 2000 refugee admissions program. Under 
your leadership, this subcommittee has consistently provided 
bipartisan support for this important humanitarian effort and 
we really look forward to a continuing close partnership with 
you on this, as well as with the voluntary resettlement 
agencies who assist in anchoring all new refugees in the 
American society once they arrive.
    With your permission, I have longer testimony that would 
take more than five minutes which I would like to submit for 
the record.
    Senator Abraham. Please.
    Ms. Taft. Thank you. First, let me start with a few words 
about the Balkans. The massive humanitarian disaster caused by 
Milosevich's regime toward ethnic cleansing in Kosovo really 
demanded a swift and immediate response. We are very pleased 
that, as a government, we have collectively worked to 
contribute to the international effort to offer places of 
refuge for these Kosovars. I think it is very symbolic that I 
have with me INS and HHS, who during the Kosovar crisis 
provided the most wonderful support and leadership and energy 
for both of their bureaus and departments and we are very 
pleased about that, and we also got a lot of good help from the 
Defense Department.
    But I think the thing that characterized mostly the 
willingness for us to accept the Kosovars was what you talked 
about earlier, which was the outpouring of interest and 
commitment from the American people all over. We have never 
seen anything like this. Hotlines that were both offering 
assistance through FEMA, as well as hotlines that InterAction 
and the voluntary agencies had showed an unprecedented level of 
real commitment, so we are very touched by that.
    The refugee admissions program at the time, we believe, was 
the best vehicle that we had to assist the Kosovars who were 
overwhelming the first asylum capacity of Macedonia. While most 
often this process of refugee admissions is used for permanent 
resettlement in the United States, we have now found that it 
can also be used as a temporary asylum, as well, and we have 
been able to demonstrate that when there is a humanitarian 
crisis of such urgency, that we can raise the level of 
admissions to meet the needs. Unfortunately, due to the time 
constraints, it was not possible to do full Congressional 
consultation this past time, but we certainly will correct that 
in the future.
    I think it is important to point out for the overall 
numbers that the changing ethnic and religious composition of 
refugee populations being resettled in our country now poses a 
lot of new challenges. The numbers of new ethnic groups that 
are being offered resettlement as a durable solution has 
skyrocketed in recent years. By accepting persons based on the 
need for rescue and resettlement rather than their integration 
prospects or the strength of their advocacy groups, we find 
that U.S. leadership has been demonstrated in our willingness 
to accept such diverse caseloads.
    But the more diverse population we are now bringing in do 
not necessarily have the benefit of strong ethnic community 
support, as the Indochinese or the Soviet refugees have had, 
and for this reason, we have been working closely with our non-
governmental partners to address this situation and to plan to 
strengthen orientation for both sponsors and refugees to 
improve the quality of resettlement.
    Now, I would like to turn to the specific proposals the 
President would like to offer for the year 2000 admissions. Our 
overall request is for 90,000. This will include 18,000 for 
Africa; 8,000 for East Asia; 17,000 for the former Yugoslavia, 
which is the Bosnian caseload and Croatian caseload; the former 
Soviet Union, 20,000; Latin America, 3,000; Near East/South 
Asia, 8,000; and Kosovars, 10,000. We also have included a 
level of 6,000 unallocated, which throughout the year we would 
be able to redistribute through consultation with you.
    Eighty-thousand of the 90,000 numbers would be funded 
through our normal migration and refugee assistance account. 
However, there is a lot of discussion going on with regard to 
our budget right now in other fora on the Hill and that we may 
have a problem paying for those 80,000 if we do not receive our 
full requested level of $660 million for the full MRA account. 
I just flag that as a potential problem. The other 10,000 
cases, which would be the Kosovar refugees, they can be funded 
by the appropriation that we got as an emergency supplemental.
    The 17,000 number is proposed for the known Kosovar crisis 
from the former Yugoslavia would address the ongoing need for 
the Bosnian resettlement. This program is decreasing, but there 
still is a need and we plan to stay with that program.
    In Africa, as you know, we have gone from 7,000 in fiscal 
year 1998 to 12,000 this year. Now, we are going to try to go 
to 18,000. We have identified a number of very vulnerable 
groups that do need third-country resettlement and we are going 
to be reaching out to those. They are in about 20 different 
countries of Africa, so it is an interesting and difficult 
caseload.
    For the Near East and South Asia, this includes Iranians, 
Iraqis, Kurds, Afghan women. We are going to double the 
caseload there, and one of the reasons we are doing this is 
that we have made a lot of effort with the UNHCR and the 
voluntary agencies to expand our access to people at particular 
risk.
    For the longstanding programs of the former Soviet Union, 
Vietnam, and Cuba, those programs are declining, but it is a 
natural decline. We believe that we are reaching those most in 
need, but we are going to only probably need 20,000 slots next 
year, or this coming year.
    In Vietnam, we will need numbers, of course, for the 
closing out of the orderly departure program and the ROVR 
program. We are going to begin processing in Ho Chi Minh City 
for those caseloads, as well as former U.S. Government 
employees and Amerasians. We still have caseloads of Burmese 
that we will be processing from East Asia.
    With regard to Cuba, our number requested will be 3,000. 
That is about double what we currently are getting this year. 
We have tried a number of things to expand the refugee caseload 
from Cuba by underwriting some of the exit fee costs so that 
that would encourage more to come forward, but we think that 
3,000 will be more than adequate.
    Finally, let me just say that refugee admissions is only 
one piece of our big portfolio. The bulk of our funding and 
efforts do go into refugee assistance overseas, and for that, 
we spend over about $450 million. We are going to be 
maintaining all of our efforts, but there has been one area 
that I think it is really important to set the record straight 
and that is on the question of whether we are not doing enough 
for Africans and other refugees because we are doing so much 
for Kosovo. Let me just say that this is an issue that gets 
raised in many different fora and by the media and it is a 
question that we always have to ask and we always have to be 
able to examine how well we are doing.
    It is a problem. In many of the donor countries, they are 
taking money away from the developing country assistance 
programs and they are using it for Kosovo. Because of the 
willingness of Congress to pass the emergency supplemental for 
Kosovo, I can say we have not taken any money away from any 
assistance programs. As a matter of fact, we have, in most 
instances, been more than 25 percent of the assistance level 
worldwide for African refugees.
    With that, sir, let me just stop my introductory comments 
and welcome any questions and also my colleagues here will be 
glad to answer those directed toward them. Thank you.
    Senator Abraham. Thank you, and thank you for giving us a 
little bit of an overview of the situation. We, I think, have 
worked pretty well together on this subcommittee and in the 
Congress to try to be supportive this year of the sort of 
unexpected and emergency circumstances and we recognize that 
there is more to the process than simply the appropriation. 
There is also the execution that has to take place, and I 
think, notwithstanding the extraordinary circumstances that we 
were confronted with, that all organizations involved, both our 
official government organizations, the nine governmental 
organizations, the U.N. High Commissioner's Office and so on, 
did yeoman's work and beyond the call of duty to try to meet 
what was a pretty staggering challenge that, I think, would 
have been even a far more difficult circumstance today had it 
not been for effective operations, so we compliment all of you.
    Let me start just to clarify on the numbers, and this would 
be the tables themselves. In the copy that we received the 
other day, there is a footnote, I guess it is, on the Kosovo 
crisis refugees, the fiscal year 2000 ceiling. The footnote 
says, basically, up to an additional 10,000 crisis refugees may 
be admitted in fiscal year 2000 provided that existing 
resources are available. Is there----
    Ms. Taft. That is not a problem.
    Senator Abraham. I was going to say, your testimony seems 
to suggest that has been addressed, but I wanted to just 
clarify it for my own purposes. So that number is one for which 
the----
    Ms. Taft. We have the money in the supplemental. We are 
going to bracket it aside to make sure that--we can spend it on 
this or we could spend it on any number of urgent requirements 
inside Kosovo, but we are holding it aside for this if we need 
those numbers.
    Senator Abraham. Right. So this is not conditioned on any 
money that has not already been made available?
    Ms. Taft. No, sir.
    Senator Abraham. OK. Good.
    Ms. Taft. Sorry for the misunderstanding.
    Senator Abraham. I thought it was the way you just said it, 
but I wanted to make sure we were clear.
    Let me ask you, on the second panel, as you are aware, we 
are going to hear from some people who are involved in the non-
governmental organizations, and I was wondering if anybody on 
the panel, starting with you, Secretary Taft, would just like 
to comment on the role that those organizations play to help 
sort of flesh out, maybe, for people who read our record have a 
better understanding of how we have different responsibilities 
and what your assessments have been of the performance of those 
groups in the various crises we have confronted.
    Ms. Taft. Our relationship with the voluntary resettlement 
agencies goes back decades. We have used basically the same 
structure for resettlement, well, since I started in the 
refugee business 25 years ago, but they were engaged with the 
State Department for decades before that.
    These organizations have a wonderful constituency that does 
two things important for us. One, it provides advocacy and 
understanding by the American public about who refugees are and 
why they are coming to this country, and that is immensely 
important because it builds a foundation for helping them 
resettle.
    They also keep us honest. They are calling all the time, 
sending us letters, going on site visits to try to raise issues 
with us, and we have had a very active relationship with them 
on working groups for every one of the regions that we talked 
about. We have an ongoing relationship to talk about who are 
they seeing, what kinds of issues are coming out, are we 
processing well enough, what kinds of ideas do they have about 
future refugee flows, et cetera. So it is a dynamic 
relationship, but we do not always agree.
    One of the things that we have to struggle with as the 
executive branch is how do you meet a perceived need, a real 
need, and how do you finance it and how do you actually manage 
it. So you will see that the numbers that the voluntary 
agencies often request to be brought into this country are 
always going to be higher. They have always been higher than 
any administration I have ever known feels that they can both 
manage and pay for. So there is that creative tension.
    We also have used--in about half of the processing places 
around the world, we use the voluntary agencies under contract 
to us to actually do the preparation of cases. This is 
particularly appropriate where we have caseloads where we do 
not really know who the people are. They really have to do 
documentation preparation to be able to present the cases to 
INS. So, as I say, in half the places, we use them for a very 
important function of refugee processing.
    The final point I guess I would like to make is that we are 
all a team, or a family, and a family sometimes disagrees. But, 
basically, the combination of the interest of the Hill, your 
committee and the House committee, the involvement that we all 
have in our own discussions in the executive branch and working 
with the NGO's is just--it is what keeps this probably one of 
the most vibrant programs that the U.S. Government funds.
    Maybe Lavinia, who also has another full relationship with 
the voluntary agencies----
    Senator Abraham. Yes. Please comment.
    Ms. Limon. It is a partnership, also, which Julia has 
characterized, where the voluntary agencies and their local 
affiliates work in partnership with us and the States to put on 
various programs of assistance to refugees. Just let me note, 
they operate the matching grant program, which is a program 
where they raise local dollars and local assistance to help 
move refugees into economic self-sufficiency within the first 4 
months. Their success rate on that is about 80 to 90 percent, 
which is really fabulous. They also work in partnership with us 
to put on different grant programs, like community-family 
strengthening, working with youth, and working with elderly and 
on citizenship. So the voluntary agencies are integral to 
having domestic resettlement work and the integration and 
economic and social self-sufficiency be real for refugees.
    Senator Abraham. Let me turn, really, to all of you at this 
point for anybody who would like to comment on the issue of the 
way that the Kosovar refugee assimilation effort worked, or 
really just the movement of people. It seemed that the efforts 
which went through Fort Dix were very successful, given the 
crisis that we confronted, and I wondered if you feel that the 
process that was at work there and the model that may have been 
established is something that will be useful for future 
situations if we confront such things again, and just your 
general evaluation. I mean, it seemed to work pretty well, but 
I would be interested in what anybody on this panel would like 
to say about how effective you think it was and how you see it 
as possibly being applied in future conditions.
    Ms. Taft. Let me just start off, because I really want the 
bulk of the time to go to Kathleen, who was on the Macedonia 
side of the processing, and to Lavinia, who within hours of 
hearing we were going to do this was up at Fort Dix and was the 
real spark to get that going as well as it did.
    Where you have an emergency requirement where people have 
to move quickly to the United States, there were some people 
who said, well, let us send them to Guantanamo, and then there 
were others, like me, who said, over my dead body. That is not 
the kind of image we want. That is not the kind of processing 
we want. We need something Stateside, and it was at that point 
that DOD was able to identify several places that HHS then 
finally selected and Fort Dix to go ahead on.
    We do not always need that kind of quick processing, and 
the people who were sent to Fort Dix were basically people who 
did not have relatives in this country that needed to move 
quickly. So I think it is good to have an option. We are hoping 
that we can kind of keep Fort Dix on mothballs just in case we 
need it in the future, but I will defer to Lavinia on her 
assessment for that process. Lavinia.
    Ms. Limon. Yes. I would agree with Julia. It was a 
successful operation with the help of State, the Department of 
Defense in particular, and INS and Red Cross, who is not 
usually a player on domestic refugee emergencies, and the 
voluntary agencies.
    I believe it is a good option. I think it was very good for 
the refugees. I think it helped the American people understand 
what being a refugee was. We had very good press coverage. The 
people of New Jersey, I think, got a clear understanding of 
what was going on. We had an outpouring of volunteers and 
contributions and what not.
    I think it is a secondary option. The processing overseas 
is, obviously, where you want to be most of the time in a kind 
of an emergency with an evacuation. What we did was prove that 
it is an option. It is a viable option for the government to 
take.
    Senator Abraham. This committee had expressed concerns when 
we first heard the theory of Guantanamo as the likely source, I 
think sharing some of your concerns, and it seems this proved 
to be a far more appropriate way, let us say, to handle a 
crisis of this dimension that required that instantaneous 
processing. I just would hope we would draw from it. My 
question sort of suggests that we would draw from this 
experience a new model to kind of be thinking about in the 
event we are ever again confronted with this type of numbers 
and this kind of time frame.
    Ms. Taft. But I think it is important, too, though, to get 
a perspective from INS, because everybody who came to Fort Dix 
was seen by INS overseas before they came so that these people 
were not here as first asylum. Kathleen, why do you not comment 
on how--you did both. You did the direct departures as well as 
those who were coming to Fort Dix. Is there anything that would 
be particularly of concern or what lessons were learned in 
terms of that process from an INS perspective?
    Ms. Thompson. About 4,000 of the 11,000 Kosovars who were 
admitted as refugees to the United States came through Fort 
Dix. This is the first time that we had the opportunity to try 
this sort of bifurcated processing, which we did with the Fort 
Dix model. In all cases, both the direct departures, direct 
arrivals, and the Fort Dix cases, INS did a full status 
determination. We adjudicated the cases to find whether the 
people had a well-founded fear of persecution. For the Fort Dix 
cases, some of the processes that we could not get up and 
running so quickly, like medical examinations and security 
checks and such, were postponed and were completed at Fort Dix.
    I think this worked particularly well, the Fort Dix model, 
because of the strength of the refugees' claims and the 
similarities and the very fact that our adjudications were so 
very close to the time of their flight from persecution. I 
think if we had a more complex caseload, it might not work as 
well, because we were able to move cases through very quickly. 
We had our first planeload filled within hours, I guess about 
10 hours of work, filled our first planeload, and so it was a 
really quick effort, but I think it was because their caseload 
was so compelling.
    Senator Abraham. Let me ask INS a separate question, and 
this is a little more specific, but it is at least our 
understanding that a number of refugees have been identified in 
Lebanon by the U.N. High Commissioner's Office as possible 
refugees, certainly, and there is, I guess, an expectation that 
at some point they will be interviewed there. Is there a 
timetable or a time frame when we might expect that will take 
place, when there will be personnel to make such interviews?
    Ms. Thompson. We have been working with UNHCR and the 
Department of State on identifying the caseload and preparing 
for a circuit ride. Our office in Athens that has geographical 
jurisdiction over Lebanon has placed that on a circuit ride 
schedule for next year. The one thing that we are awaiting is a 
final security assessment from the embassy in Beirut that will 
permit our travel, but it is definitely on our horizon.
    Senator Abraham. When you say a security----
    Ms. Thompson. Well, in the past, there have been certain 
security arrangements that were required for U.S. officials to 
travel to Lebanon, and I do not know if Secretary Taft could 
comment on the latest from the embassy.
    Ms. Taft. INS has to be approved by the diplomatic security 
people at the State Department before they can go to certain 
parts of the world. We all do.
    Senator Abraham. Sure.
    Ms. Taft. And Lebanon has certain levels of security 
threats, so they have to get approval by the diplomatic 
security people to be able to go there and stay and do the 
processing. So I think it is to be scheduled. I mean, this is 
not going to be a problem.
    Mr. Weiss. And we are prepared, once we get that clearance, 
we are prepared----
    Senator Abraham. Is there a problem with that?
    Ms. Taft. It depends on what country you go to. There are 
certain places I cannot go in the world and probably they would 
go crazy if you went, where it is just not safe enough to go. 
So we have to make sure that it is safe for----
    Senator Abraham. I understand. I just wondered. I thought 
that, at least with respect to Lebanon, that we had sort of 
moved past anything that would require a significant delay. In 
fact, I was sort of surprised when I met recently with 
Ambassador Satterfield, who in the process of talking about how 
members of the Senate might get to Lebanon, because in the past 
there would have either have to have been the use of an air 
bridge from Cyprus, but he said, well, you can just fly into 
the airport now. So I am really asking you not to challenge you 
but just because it seemed as if we had maybe gotten past that 
point with regard to Lebanon, and if it has not, it is news.
    I will just ask you all to keep us apprised or let us know 
what specifics you might as to what seems to be a likely 
timetable for getting that clearance, and if there are 
problems, I would just like to know about it. I was a little 
surprised when I heard that direct flights into Beirut now were 
being approved for members of Congress and I would assume that 
if that is possible, then presumably it would also apply for 
others in the government.
    Ms. Taft. We will get back to you, sir, on that. But part 
of their answer is that they have to schedule circuit rides, 
and the Athens office is the office that was backstopping all 
of the Kosovar activities in Macedonia, so some of the circuit 
rides had to be rescheduled, and whether security was the 
issue, funding was the issue, or enough people were the issue, 
we will get back to you on that.
    Senator Abraham. In the same vein, or maybe it is the same 
circumstance, but in the hearing a couple of years ago, we had 
inquired about the circuit riding possibilities with respect to 
the former Soviet Union, and I was wondering if there have been 
any developments along those lines because I know other members 
of the committee have asked me about this as well as colleagues 
because of reports we hear about people there.
    We have always debated those numbers a little bit because 
the amount of people who purportedly are in the category of 
potential refugees does not seem to sometimes match the number 
who show up in interviews and things like that. One of the 
concerns that those who want to see those numbers remain high 
have expressed is that people are either afraid or too far away 
and so on, and we had talked about trying to address that 
because we keep that number there pretty high and yet we do not 
necessarily always hit that number. I just wondered what the 
status was with respect to that.
    Ms. Taft. We have, as a result of our consultations with 
you and others, during the past year have sent out letters to 
all of the people who had been approved for movement but had 
not actually moved through the system between 1991 and, I 
believe, 1996. So we sent out 7,000 letters. We sent out 
letters to their sponsors. We validated addresses. We got back 
2,000 responses.
    In those responses, we had asked whether they needed to see 
an adjudicator close by, whether they had a problem with 
transportation to Moscow, we asked them all kinds of questions 
as to why they were not moving. Only 84 people said they did 
not have the money to go to Moscow to get their final medical 
clearance and to leave. So we said, OK, we will pay for that. 
We will give you a loan for that and we will pay your stipend 
when you go to Moscow.
    That does not mean we may not mean circuit rides, but what 
we did find out for that first group of 2,000 respondents, that 
none of them had requested circuit rides. Now, INS still has 
them. They have been proposed. You have reviewed whether you 
can do it. They are planned for Tashkent, Uzbekistan, Almaty, 
Kazakhstan, Tbilisi, Minsk, Belarus, and Riga, if we need them, 
and we do not right now. We have not asked them to execute a 
circuit ride process. However, it is my understanding that you 
are prepared to do it if we need it.
    Mr. Weiss. We are prepared to do that, Senator. It would be 
one of the great noble adventures in Central Asia that many of 
our former Peace Corps volunteer refugee officers will jump at.
    Senator Abraham. I am sure they would. Maybe we should do 
one just for the sake of the memoirs.
    Ms. Taft. But, actually, we did establish an IOM medical 
processing capability in Almaty, and maybe what we should do is 
try Almaty as sort of a Central Asia overlay with INS and your 
Peace Corps volunteers, your INS and IOM and we will see if 
that helps at all. But it does not at this time appear that the 
reason people are not availing themselves to resettlement is 
because there is no circuit ride.
    Senator Abraham. You received 2,000 responses from what was 
the total?
    Ms. Taft. Seven thousand letters. We have thousands more 
that are going out, because, as you know, there were 30,000 
people who have not yet moved.
    Senator Abraham. Right.
    Ms. Taft. Most of them have not moved for the last 2 or 3 
years, but we wanted to take the older caseload and find out 
what was really happening with them. But we are sending out 
letters now to the more recent cases and we will see what they 
have to say. We want to find out why they are not moving and we 
will solve it. We want to solve it with them. But many of the 
reasons people have not moved are a grandmother who is sick or 
a father who is ill, personal reasons.
    Senator Abraham. So you have seen no evidence in the 
responses, basically, that you have received to this point to 
suggest that incapacity of some sort is a factor in terms of 
not being eligible?
    Ms. Taft. No, sir.
    Senator Abraham. Let me ask, just on another matter, some 
concerns have been raised to us about a possible change in 
policy with respect to interviews of those seeking refugee 
status in certain countries where, at least in the reports we 
have heard, there may be a policy change that would not allow 
interviews to occur for those who are either married children 
of U.S. residents or grandparents of U.S. residents unless they 
were separately referred by UNHCR or embassy personnel. Is that 
a rumor that is with any basis or is that something that is----
    Ms. Taft. You are talking about the former Soviet Union?
    Senator Abraham. No, it is unspecific in terms of the 
countries being possibly affected by the policy, but what we 
have----
    Ms. Taft. We just proposed a change with the voluntary 
agencies in a meeting we had on Monday where we are 
recommending that the Bosnian caseload, which is processed 
primarily out of Zagreb and out of Frankfurt, that we not 
include what is called a P-4 category, and the P-4 category, 
just to--is the only place we have it. A P-4 is grandparents, 
grandchildren, married sons and daughters, and siblings of U.S. 
citizens and persons lawfully admitted to the United States as 
permanent resident aliens, refugees, asylees, conditional 
residents, and certain parolees.
    This priority four is only applying to Bosnia, and we are 
trying to build, as you can imagine, more equity in our program 
and not to have extra eligibility, which really does sort of 
link into a longer-term immigration program. We thought maybe 
it was time to reassess that for the Bosnians, because, as I 
say, they are the only caseload that had it.
    But that does not mean that anybody who does not have a 
well-founded fear of persecution in their own right, they can 
still become a P-1 or they can be a P-2, if they also meet a P-
2 category. We do not want anyone who is at risk of being 
persecuted or who has been persecuted to be denied access. What 
we are addressing in this P-4 category are the really extended 
family members who, in their own right, may have less of a 
vulnerability.
    Senator Abraham. So that category only is applicable to the 
Bosnian refugees----
    Ms. Taft. Bosnia, yes, sir.
    Senator Abraham [continuing]. And so the possible change 
that you are either recommending or proposing or whatever would 
only affect those refugees because that is the only place where 
the P-4 category exists? Again, I am kind of just going on 
information supplied without a lot of detail to us. So, 
basically, you are looking for either the embassy personnel or 
UNHCR to make a referral before those P-4 category people would 
be interviewed, unless they fell into another category, as 
well?
    Ms. Taft. Well, if any of the P-4--we have, I think, an 
agreement with the voluntary agencies that they would be 
comfortable, or at least acceptable, for us to stop new AOR's, 
affidavits of relationship, by November 1. So we still have 
some time to work on this. We also, as you know, have a big 
backlog of more urgent cases in Bosnia, P-1's, P-2's, and P-
3's. We would like to implement it now, not that it is going to 
affect so much the people who are already registered, but if 
you can imagine 120,000 people who have already been processed 
to the United States from the Bosnian caseload, they all have 
brothers and sisters that are now applying and wanting to come, 
as well. I just think it is important for us to be careful that 
we----
    Senator Abraham. In short, what you are saying is that 
since this is a unique policy for this----
    Ms. Taft. For just that caseload.
    Senator Abraham [continuing]. One caseload that any 
movement in this direction is only aimed at sort of leveling 
the playing field with regard to others?
    Ms. Taft. Exactly.
    Senator Abraham. Let me just change subjects for a moment, 
Ms. Limon, and ask you to just describe for us the sorts of 
things that we try to do as part of our overall refugee program 
here in the United States to better train or prepare or find 
work for refugees, because I think a lot of people should know 
more about this. I know that is one of the priorities we have, 
so maybe you could tell us about some of the things that your 
offices do.
    Ms. Limon. With pleasure, Mr. Chairman. The domestic 
refugee program is quite varied and quite extensive throughout 
most of the States in the United States. We start out, of 
course, with refugee cash and medical assistance, which is for 
8 months, a short time to achieve economic and social self-
sufficiency, but one which I think we have found to be optimum, 
that it does give the refugees enough time to get on their feet 
and does not leave them in a dependent situation for a long 
time. So we have seen a great success with that.
    We have social service money going to all the States for 
basically employment services and for other kinds of social 
services, to work with youth and elderly and women and other 
people with particular problems. We have supported victims of 
torture programs prior to the Victims of Torture Act being 
passed, and we hope that it is funded this coming year 
separately so we can extend those services to non-refugees as 
well as refugees, since our appropriation is just for refugees.
    This year, we were able to put out support for schools, K 
through 12, who have been impacted by refugee children coming 
in, and I think ORR over the years has really been very 
important in developing the field of English as a second 
language, and, of course, English and jobs is the emphasis. I 
think we have been very successful in the last few years.
    We have also implemented the GIPRA guidelines in measuring 
performance, that every State has basically increased their 
performance by 5 percent every year in terms of moving people 
to self-sufficiency. Obviously, the economy has something to do 
with that. The jobs are available. But also, I think, the 
entire program has shifted so that self-sufficiency and moving 
refugees on is something that not only the people who work with 
refugees are completely bought into, but the refugees 
themselves come with the attitude of, where is my job and how 
do I get moving, and we see that all over the country.
    Senator Abraham. So you feel very optimistic about the 
program?
    Ms. Limon. I do. I think it has really had a dramatic 
improvement the last few years.
    Senator Abraham. I want to thank, once again, all of you. 
We look forward to swift completion of the consultation process 
between now and the end of the fiscal year and we will be in 
touch, as well as to hear additionally about the challenges you 
all are dealing with every day. We appreciate your being here, 
Secretary Taft and all of you.
    Ms. Taft. Thank you so much.
    Senator Abraham. Thank you.
    [The prepared statements of Ms. Taft and Lavinia Limon 
follow:]

                  Prepared Statement of Julia V. Taft

    Mr. Chairman, I am pleased to participate in today's hearing on the 
President's proposal for the fiscal year 2000 refugee admissions 
program. Under your leadership, this subcommittee has consistently 
provided strong bipartisan support for this important humanitarian 
effort and I look forward to reviewing with you where the 
Administration believes our focus should be as we enter the next 
millennium.
    But first, a few words about recent events in the Balkans. The 
massive humanitarian disaster caused by the Milosevic regime's 
attempted ethnic cleansing in Kosovo demanded a swift and resolute 
response by the international community. It seems almost impossible to 
comprehend that some 800,000 citizens of the Federal Republic of 
Yugoslavia fled their country under threat of unspeakable violence, 
survived for several weeks in hastily constructed refugee camps, host 
family accommodations or in evacuation locations around the globe; and 
then--in the vast majority of cases--returned home to Kosovo. And all 
in four short months. While the international community's effort was 
massive and, even under the most difficult circumstances, effective in 
providing food and shelter and minimizing the spread of disease, much 
credit for this remarkable outcome rests with the Kosovars themselves. 
After the horror that they had experienced, their abiding goal and what 
sustained them throughout was the fervent desire to return to their 
homes, communities, customs and culture. They did not leave by choice 
to seek a better life elsewhere. They, like most refugees in the world, 
wanted above all else to go home.
    In order to reduce the pressure on Macedonia, a neighboring state 
that deserves enormous credit for sharing its territory with the 
fleeing Kosovars and the relief effort, the United States joined 30 
other countries in offering places of refuge to these strong and 
remarkable people. The refugee admissions program that we are here to 
talk about today was the best available vehicle the United States had 
to assist the Kosovars. While most often used in situations where 
resettlement is intended as a permanent solution, we have now seen that 
it can also be effectively used in other situations. The fact that the 
resources of a well-established network of voluntary agency affiliates 
could be used in this emergency operation greatly facilitated our 
ability to respond. In all some 11,000 Kosovars have been provided 
refuge here since the first arrivals on May 5. In keeping with our 
commitment to facilitate their voluntary return to Kosovo, the first 
group of 300 repatriating Kosovars departed the United States on July 
26. The International Organization for Migration estimates that up to a 
third of the 11,000 have requested information on return flights.
    While all of this has been happening, the American people have been 
reminded of what it means to be a refugee. The public's response to the 
plight of the Kosovars was immediate and overwhelming. We received tens 
of thousands of calls and everyone wanted to do something. We did our 
best to ensure that these offers of assistance were appropriately 
channeled to voluntary organizations that resettle not just Kosovars 
but refugees from all over the world. These refugees may not receive 
the same press attention but they are welcomed in communities across 
the United States week in week out year after year.
    The changing ethnic and religious composition of the refugee 
population being resettled under the admissions program has posed new 
challenges for the resettlement community. Religious persecution has 
long been the basis of a significant percentage of applications to our 
refugee admissions program and we have unfortunately no reason to 
believe that this global phenomenon will ameliorate in the near term. 
The number of new ethnic groups being offered resettlement as a durable 
solution has skyrocketed in recent years.
    Some have noted that in 1993 the authorized refugee ceiling was 
considerably higher than it is at present. However, two in-country 
refugee programs in Vietnam and the former Soviet Union which the 
United States was fulfilling long-standing historic commitments then 
produced 80 percent of admissions. By way of contrast, in the current 
fiscal year, that percentage will continue to decline to about 40 
percent, leaving the majority of U.S. refugee admissions for those 
individuals and groups recognized by UNHCR and the international 
community as refugees in need of resettlement. It is by accepting 
persons based on their need for resettlement rather than on their 
integration prospects or the strength of their advocacy groups that 
U.S. leadership and commitment are demonstrated.
    The more diverse population we now bring in often cannot depend on 
the kind of ethnic community support that was available to the 
Indochinese and Soviet refugees and there are signs that the system is 
straining in some locations. We have begun a dialogue with our non-
governmental resettlement partners to determine how the government and 
the private sector should best organize our institutions and resources 
to better meet the needs of incoming refugees, including through the 
involvement of interested members of resettlement communities.
    I would like to turn now to the specifics of the President's 
proposal for fiscal year 2000.
    We believe that the overall admissions ceiling in the coming year 
should be 90,000. Eighty thousand of these numbers, would be funded 
through the President's requested level for the Migration and Refugee 
Assistance account for fiscal year 2000. However, if we receive an 
appropriation less than $660 million, we will be forced to cut the 
number of admissions. Adequate funding is a prerequisite for 
implementing the type of generous refugee admissions program many in 
this Congress have encouraged this Administration to maintain.
    In addition to the 80,000 numbers to be funded by our regular MRA 
budget, we also propose that up to 10,000 numbers be made available to 
address compelling refugee cases, which have arisen from the Kosovo 
crisis. Given the dynamic nature of events in the region, it is 
difficult to estimate how many of these admissions will be needed. 
These would be funded out of the Kosovo Emergency Supplemental 
Appropriation already approved by Congress. While most Kosovar 
Albanians have already or will be able to return, there will be 
individuals identified by UNHCR who are in need of third country 
resettlement. Members of minority groups, such as the Roma people, and 
former refugees now unable to remain safely in the former Yugoslavia--
such as Krajina Serbs--will continue to need assistance in finding a 
durable solution. In addition, we anticipate that there will be certain 
Kosovar Albanians who were so traumatized they will not be able to 
return.
    The 17,000 numbers proposed for non-Kosovo crisis refugees from the 
Former Yugoslavia would address the ongoing need for Bosnian 
resettlement. While this program is decreasing in size, there remains a 
significant population for whom return to Bosnia is not yet a realistic 
prospect. Many persons in mixed marriages fall into this category.
    In Africa, I am pleased to report that the rapid expansion from 
7,000 admissions in fiscal year 1998 to 12,000 this year has been 
accomplished without diminishing either the quality of the processing 
or the caseload. We credit all of our operational partners--Church 
World Service (the Joint Voluntary Agency), INS, UNHCR, and the 
International Organization for Migration--with doing a masterful job of 
coordination, in spite of the disruption created by the bombing of our 
Nairobi Embassy one year ago this week.
    INS and we have continued to develop our relationship with UNHCR 
field office staff in Africa to enhance their understanding of our 
programmatic and legal requirements. Together we have identified groups 
of refugees, such as Ogoni and Togolese in Benin and the Mushunguli 
(Bantu Somalis) in Kenya who needed or need third country resettlement. 
In keeping with this progress, the President's proposal for African 
refugee resettlement would be to increase significantly the ceiling in 
fiscal year 2000 to 18,000. This is consistent with our effort to 
ensure that we resettle those populations most in need.
    Our support of UNHCR in the Near East/South Asia region has greatly 
expanded their work in individual status determinations and, as a 
result, referrals for resettlement. Although many of the beneficiaries 
are members of nationalities traditionally included in our admissions 
program--Iraqis and Iranians--we have also seen a sizeable increase in 
the numbers of Afghan Women at Risk and African refugees, long resident 
in the region, referred for resettlement. As the President has made 
clear, we are deeply opposed to the Taliban regime's repressive 
policies toward women and we are committed to ensuring that Afghan 
women in vulnerable circumstances obtain the protection they deserve. 
In order to accommodate the anticipated surge in referrals, we are 
proposing to double this regional ceiling in fiscal year 2000 to 8,000.
    As I noted earlier, the longstanding in-country programs for the 
former Soviet Union, Vietnam and Cuba are declining. In the former 
Soviet Union, admissions this year are unlikely to reach 20,000. New 
applications from eligible individuals have declined and the 
composition of the caseload now comprises predominantly Evangelical 
Christian cases. We are making a last effort to resettle those among 
the long-approved population of over 30,000 who have yet to take 
advantage of our resettlement offer. We continue to work with the 
voluntary agencies to address the issues of those who have not departed 
and expect to see a slight increase in next year's admissions level as 
some among this group decide to migrate. The proposed ceiling for the 
former Soviet Union is 20,000 in fiscal year 2000.
    In Vietnam, most of the remaining Orderly Departure and ROVR 
program cases are being adjudicated this fiscal year but not all will 
arrive by September 30 and will require fiscal year 2000 admissions 
numbers. In addition, interviews of some former U.S. government 
employees and Amerasians as well as compelling cases of current 
persecution will be handled through a refugee unit recently established 
in conjunction with our consulate in Ho Chi Minh City. Burmese and 
other East Asian cases referred by UNHCR or U.S. Embassies will also 
utilize some of the 8,000 admissions numbers proposed for the region.
    For the past two years, Cuban refugee admissions have fallen well 
below the authorized ceiling. We have taken steps to ameliorate the 
burden posed by the Cuban government's exorbitant departure fees. 
Refugee admissions remain an important component of the 20,000 annual 
Cuban migration program and we continue to interview qualified 
applicants. In addition, the program remains available to individuals 
of other Latin American nationalities referred to the program by UNHCR 
or U.S. embassies. The recommended ceiling for fiscal year 2000 is 
3,000.
    Given the considerable uncertainties surrounding the need for 
refugee admissions numbers, we recommend that 6,000 numbers be 
unassigned to specific regions, but rather, be available for future 
allocation from an unallocated reserve. This will allow the program the 
flexibility needed to address situations such as this year's Kosovo 
crisis.
    Turning briefly to our other area of major responsibility--refugee 
assistance, the Balkans has been the single largest focus for our 
bureau over the past year. I am extremely proud of the role my staff 
played in quickly moving resources to the region, evacuating refugees 
from first asylum countries, keeping the U.S. Government apprised of 
the constantly changing situation on the ground, and working with other 
governments and humanitarian organizations. In addition to our 
resettlement efforts, PRM has provided more than $130 million in 
assistance in fiscal year 1999 for emergency relief, return, and 
reintegration. The funds recently appropriated by the Congress in the 
Emergency supplemental are already being used to address the priority 
needs of the returnees inside Kosovo.
    Even as we focused on Kosovo, we continued our efforts to 
facilitate minority return in Bosnia and Croatia. Although progress in 
these countries is slower than desired, the momentum is in the right 
direction and we remain committed to this effort.
    In the Middle East, PRM's substantial contributions to the UN 
Relief and Works Agency are a key element of U.S. assistance to the 
Middle East Peace Process, supporting over 3.2 million Palestinian 
refugees. In addition, the US helps more than 50,000 humanitarian 
migrants from the former Soviet Union resettle in Israel yearly.
    Migration is one of the top issues on the USG's agenda with our 
neighbors to the south, and PRM is increasing its funding in the 
region. The U.S. is responsible for implementing several sections of 
the Santiago Summit of the Americas Plan of Action, including the 
section pertaining to Migrant Workers, and we will soon assume the 
chair of the Regional Conference on Migration (known as the Puebla 
Group). PRM is providing assistance for people displaced by the 
hostilities in Colombia, an area of growing concern.
    The U.S. remains the driving force behind efforts to help states of 
the former Soviet Union develop effective and comprehensive solutions 
to population movements within and among their countries. Earlier this 
month, the Government of Russia officially thanked us for the role we 
have played on this front. At the same time, PRM continues to support 
programs that foster self-reliance for IDP's in Azerbaijan and Georgia 
as well as refugees in Armenia.
    Much of the news from Africa has been discouraging over the last 
year--unspeakable atrocities in Sierra Leone where innocent men, women, 
and even small children have had limbs chopped off in order to 
terrorize rather than kill; renewed warfare in the Congo which pulled 
in neighbors near and further afield; a war we have difficulty 
understanding between Ethiopia and Eritrea; another cycle of warfare in 
Congo/Brazzaville. All of these have uprooted people from their homes. 
In recent weeks, however, there have been a number of hopeful 
developments that I would like to highlight.
    The July 7 Lome peace accord between the Government of Sierra Leone 
and the Revolutionary United Front has been holding and does provide a 
framework for that long-suffering country to move toward recovery and 
reconciliation. When appropriate, PRM/State will strongly support the 
repatriation of some 450,000 refugees currently in Guinea, Liberia, and 
Cote d'Ivoire. Sierra Leonean refugees have always been anxious to 
return home when the conflict ebbed in earlier stages, so we expect 
that most will want to return as soon as they perceive Sierra Leone to 
be secure. At the same time, many refugees have experienced atrocities 
and setbacks in previous peace processes so many may be cautious about 
returning.
    At a recent international meeting (Brookings Group) of senior 
representatives from select major donors (including NGO's, UN agencies, 
and the World Bank), Sierra Leone was selected as a target country for 
proposed ``partnership initiatives'' designed to improve relief and 
development planning and program implementation. This should lead to 
increased donor attention to Sierra Leone, which has received 
insufficient world attention compared to other complex humanitarian 
emergencies. The Great Lakes region, especially Burundi, was also 
selected as a pilot.
    A cease-fire accord for Congo has been signed last month by six 
heads of state involved in the war there. The agreement still lacks the 
signature of the rebels because of internal disagreements, but we are 
hopeful that this will soon be rectified, that the fighting will indeed 
stop, and the outflow of refugees--principally to Tanzania, Zambia, and 
the CAR--will also be reversed.
    And an accord between Ethiopia and Eritrea seems imminent. Peace 
there would enable the internally displaced to return to their homes. 
And possibly those who were forced out because they had ethnic origins 
in the other state might even be able to return eventually, should they 
want to.
    Our assistance earmarked for Africa this fiscal year is expected to 
reach some $135 million. One element of that is the beginnings of an 
effort to close the gap between the basic assistance that often exists 
in Africa with what international practice outlines as the minimum 
standard in such areas as nutrition and health. For example, we are 
providing assistance to an NGO in Guinea to mount a new program to 
address gender violence. In the Great Lakes, we are providing 
additional funds to WFP to help ensure that refugees dependent upon 
external food deliveries get the requisite 2,000 kcal per day.
    We are also pursuing this ``up to standard'' initiative with Afghan 
refugees, with a special focus on educational opportunities for refugee 
women and girls in Pakistan. When it looked a few years ago as if peace 
might come to Afghanistan, repatriation was robust and international 
aid to refugees began to be downsized. Now, with genuine peace still 
elusive in Afghanistan and the patience of the refugee-hosting nations 
wearing thin as the decade closes, we have redoubled rather than phased 
out our assistance. We expect our earmarked assistance for Afghans to 
reach nearly $10 million this fiscal year, while general regional 
contributions to the UNHCR and ICRC also benefit Afghans significantly.
    In East Asia, Burmese continue to be the largest refugee group now 
that Cambodians have all returned home. I am happy to report that the 
Thai Government's relatively recent agreement to accord UNHCR an 
explicit monitoring role along the Burma border where all basic 
assistance is provided by NGO's has resulted in refugee registration 
and the thwarting of some threatened pushbacks. The situation in 
Indonesia is quite worrisome, particularly in East Timor and Aceh, 
where the kind of relief and protection that an ICRC presence can bring 
is so needed. That is a good example of where our Bureau works closely 
with other elements of the Department and USAID to take as much 
complementary preventive action as possible.
    I have not, of course, mentioned all of the humanitarian situations 
in which we are deeply involved and would be happy to try to answer 
whatever specific questions you might have. I do want to address one 
issue that keeps arising--the perception that we are doing more for 
some refugee groups than for others. Late last month (7/22), for 
example, the Wall Street Journal carried a story that the Office for 
the Coordination of Humanitarian Affairs (OCHA) was concerned that aid 
to Kosovo is coming at the expense of humanitarian disasters in Africa 
and Asia. While we cannot speak for other countries, the United States 
has ensured that our funding of refugee assistance for Kosovo has not 
diminished our regular commitment to assist refugees and others in 
humanitarian crises in the world, thanks to the special supplemental 
appropriation.
    Everyone recognizes that humanitarian needs in Africa, for example, 
are huge and that there are many obstacles to meeting all of them 
adequately--from programming levels to logistical access. However, it 
is not by merely criticizing aid to victims in Kosovo that those 
obstacles will be overcome. We must look at concrete ways of ensuring 
that our collective efforts everywhere are indeed up to international 
standards and requirements.
    In closing, let me reiterate our great appreciation for your steady 
support for all that we are trying to do for the world's refugees and 
internally displaced persons. We value our relationship with the 
Congress and welcome your thoughts on the President's fiscal year 2000 
admissions proposal or other aspects of the United States humanitarian 
relief efforts.
                               __________

                  Prepared Statement of Lavinia Limon

    Mr. Chairman, I appreciate the opportunity to submit this testimony 
on behalf of the President's recommendations for fiscal year 2000 
refugee admissions. As the Director of the Office of Refugee 
Resettlement in the Administration for Children and Families, I am 
responsible for administering the refugee and entrant assistance 
program.
    The domestic refugee resettlement program must be able to respond 
quickly, visibly, and flexibly in providing refugee-specific services 
and in responding to refugee admissions crises. I believe that the 
program has become much more effective at moving people to economic and 
social self-sufficiency in the last five years than ever before. There 
are many reasons for this success such as the changes in welfare 
reform, the strong economy, our flexibility in delivering services, the 
broadening of social services available to refugees, and that refugees 
have a strong work ethic and ambition to succeed.
                               background
    Since 1975, over 2.2 million refugees have been resettled in the 
United States. The major goal of the refugee and entrant assistance 
program is to help refugees achieve economic self-sufficiency and 
social adjustment within the shortest time possible following their 
arrival in the U.S. For fiscal year 1999, approximately $435.2 million 
was available through seven different programs: refugee cash and 
medical assistance, the ``alternative programs'' under the Wilson/Fish 
authority, social services, preventive health services, the voluntary 
agency matching grant program, the unaccompanied refugee minors 
program, and the targeted assistance grant program.
    Refugee cash assistance and refugee medical assistance (RCA/RMA) 
are available to needy refugees who are not eligible for other cash or 
medical assistance programs such as Temporary Assistance for Needy 
Families (TANF), Supplemental Security Income (SSI), or Medicaid, and 
who arrive in the U.S. with few or no financial resources. This refugee 
assistance is State-administered and is paid entirely from federal 
funds. It is available to refugees only for a limited number of months 
following arrival in the U.S.; currently RCA/RMA are available for a 
refugee's first 8 months in the U.S.
    We also reimburse States for the costs incurred on behalf of 
refugee children in the U.S. who are identified in countries of first 
asylum as unaccompanied minors. Depending on their individual needs, 
refugee children are placed in foster care, group care, independent 
living, or residential treatment.
    At the State and local level, activities continue around creating 
alternative programs using the Wilson/Fish authority. Under this 
authority, we develop alternative projects that promote early 
employment of refugees. States, voluntary resettlement agencies, and 
other non-profit organizations have the opportunity to develop 
innovative approaches for the provision of cash and medical assistance, 
social services, and case management. Three projects were established 
when the State governments of Kentucky, Nevada, and South Dakota 
decided not to continue administering the refugee cash and medical 
assistance program. Eight other projects have been established as 
refugee-specific alternatives to the TANF and RCA programs; they are 
located in North Dakota, Colorado, Idaho, Maryland, California, 
Vermont, Oklahoma, and Louisiana.
    To help refugees become self-supporting as quickly as possible, we 
also provide funding to State governments and private, non-profit 
agencies to provide services, such as English as a Second Language and 
employment training. Refugees receiving cash and medical assistance are 
required to be enrolled in employment services and to accept offers of 
employment.
    For fiscal year 1999, ORR provided grants to State public health 
departments for preventive health assessment and treatment services to 
refugees for protection of the public health against contagious 
diseases.
    Under the Voluntary Agency Matching Grant Program, agencies match 
Federal funds from private funds or in-kind goods and services. About 
one-quarter of all newly arriving refugees are enrolled in this 
program. Under Matching Grant rules, during the refugees' first four 
months in the U.S., nine voluntary resettlement agencies take 
responsibility for resettling refugees through their local networks and 
assisting them to become self-sufficient through private initiatives 
without recourse to public assistance.
    The Targeted Assistance Grants program targets additional resources 
to communities facing extraordinary resettlement problems because of a 
high concentration of refugees and a high use of public assistance by 
the resident refugee population. Special efforts are directed to those 
refugees who depend upon public assistance.
                    recent activities in the program
    Our discretionary funds have supported services to refugees in a 
broad array of activities: Cultural orientation services for refugees 
who are newly arrived, help to localities which receive unanticipated 
arrivals as well as communities affected by increases in the arrival of 
Cuban and Haitian entrants, and support for communities which represent 
preferred resettlement sites. Ongoing activities supported by 
discretionary funds include community and family strengthening, 
domestic violence prevention, crime prevention, mental health services, 
English language and vocational training, micro-enterprise, support for 
local and national ethnic groups, and targeted assistance to local, 
impacted counties. This year, ORR has funded a new area of educational 
support to schools with a significant proportion of refugee children. 
Finally, discretionary funds also support services for communities with 
large concentrations of refugees who have experienced particular 
difficulty acculturating to local communities. These include subsidized 
employment, citizenship services, and services for the elderly.
    As you know, in the Refugee Act there is a provision that 
authorizes the Secretary to make arrangements for the temporary care of 
refugees in the United States in emergency circumstances, including the 
establishment of domestic processing centers. The most recent use of 
this provision was the assistance ORR provided to Kosovar refugees at 
Fort Dix, New Jersey. ORR coordinated the efforts of other HHS 
agencies, the military, the State Department, the Immigration and 
Naturalization Service, the Customs Service and other agencies at Fort 
Dix. I am happy to report that this joint effort ensured the smooth and 
efficient processing of over 4,000 Kosovar refugees and their 
resettlement in communities all across the country in a very short 
period of time.
                               conclusion
    We will continue to work closely with Congress, the States, 
voluntary agencies and others involved in refugee resettlement to 
identify creative and effective ways to help refugees achieve economic 
self-sufficiency and social adjustment as quickly as possible.
    We believe the Administration's proposed 5-year reauthorization 
package provides the framework for accomplishing this goal. We look 
forward to working with the Committee to reauthorize the refugee and 
entrant program this year.

    Senator Abraham. I would now ask our second panel and its 
members to please join us. If I can have everybody's attention, 
we will turn to our second panel. Let me just begin by 
introducing our witnesses and then we will go to them for 
statements.
    First, we will hear from Mary Kortenhoven, who is a case 
worker from the Program Assisting Refugee Acculturation, or 
PARA, with the Church World Service and who is also a 
missionary with the Christian Reformed Church in Grand Rapids, 
MI. We welcome you here.
    We also have next to her Binta Bah, who is a refugee from 
Sierra Leone, also from Michigan, I guess, now. Ms. Bah arrived 
in the United States in late May. Her statement will be read by 
Mrs. Kortenhoven.
    Then we will hear from Bishop Nicholas DiMarzio, who is the 
Bishop of Camden, NJ, and who is Chairman of the Committee on 
Migration for the National Conference of Catholic Bishops. We 
welcome you.
    Finally, we will hear from Mr. Ralston Deffenbaugh, who is 
President of the Lutheran Immigration and Refugee Services.
    I want to thank you all for coming. Because there are a 
number of folks who will be testifying on this panel, we will 
try to use our 5-minute clock here. The green light means go, 
the yellow light means 1 minute left, and the red light means 
you have hit 5 minutes, although we are pretty flexible about 
finishing paragraphs and things like that at the end. We will 
include full statements in the record, even if they exceed the 
5-minute time frame here.
    We will begin with you, and I guess you are going to read a 
statement for Mrs. Bah at this time, as well as your own, 
maybe?
    Mrs. Kortenhoven. Do you want mine or hers first?
    Senator Abraham. Why do you not start with yours and then 
we will have you read hers after you finish. Welcome.

  PANEL CONSISTING OF MARY KORTENHOVEN, MISSIONARY TO SIERRA 
LEONE, CHRISTIAN REFORMED CHURCH, GRAND RAPIDS, MI; BINTA BAH, 
   REFUGEE FROM SIERRA LEONE, GRAND RAPIDS, MI; NICHOLAS A. 
  DiMARZIO, BISHOP OF CAMDEN, NJ, AND CHAIRMAN, COMMITTEE ON 
MIGRATION, NATIONAL CONFERENCE OF CATHOLIC BISHOPS, CAMDEN, NJ; 
     AND RALSTON H. DEFFENBAUGH, JR., PRESIDENT, LUTHERAN 
 IMMIGRATION AND REFUGEE SERVICE, WASHINGTON, DC, ON BEHALF OF 
    THE AMERICAN COUNCIL FOR VOLUNTARY INTERNATIONAL ACTION

                 STATEMENT OF MARY KORTENHOVEN

    Mrs. Kortenhoven. Thank you, Senator Abraham, for inviting 
me to come with Binta Bah to this hearing. My name is Mary 
Kortenhoven and I am a missionary to Sierra Leone from the 
Christian Reformed Church. I have served with my family in 
Sierra Leone since 1980 and am waiting to return as soon as 
that is possible. I deeply appreciate the privilege of being 
able to give my own brief statement and to read Binta's 
testimony.
    I am also glad to have the opportunity to say thank you to 
you, Senator Abraham, for the leadership that you have given on 
policy issues affecting refugees and asylum seekers. We are 
fortunate to have a chair of this committee who cares so much 
about the protection and humanitarian assistance for these 
vulnerable people.
    I feel that I represent two sides of this story. I come as 
one of the good folks in West Michigan. I represent the 
compassionate ones who have welcomed the strangers. They are 
people who are very concerned about the millions of refugees 
and displaced people all over the world. The people in West 
Michigan care very much about what is happening to people in 
Africa.
    I also feel qualified to represent the refugee side of the 
story. I have been forced from my home by war three different 
times. The first was in Nigeria with the Biafran War. The 
second was when rebels of the RUF marched into the area where 
we were living in Sierra Leone. The third was during the coup 
in 1997 when the AFRC took control of Sierra Leone.
    A refugee does not choose to become a refugee. We all 
think, ``This will never happen to me,'' and everyone who is 
forced to leave her home thinks, ``This will be over in a few 
days and I will return to my home.'' I know I thought these 
things when my family had to leave our home of 14 years in 
Foria. We left at the same time Binta was forced from her home 
in Sefadu. We woke up to the news that rebels had burned a town 
20 miles away and were entering a village 10 miles away. I went 
from room to room wondering, what should I take, and thinking, 
I cannot fill the car with my stuff.
    I left with six women and six children in the vehicle. We 
cried for miles as we passed neighbors running on foot with 
loads on their heads and children on their backs. We passed a 
carpenter with his wheelbarrow full of tools. Mothers put more 
children through our windows. Other mothers were crying for 
children they could not find. We saw the children further down 
the road and told them to sit and wait for your mothers. I will 
never forget that exodus.
    I was able to return to the village a month later. There 
was nothing left of our house. It was a burned-out shell. 
Scraps of charred paper were stuck in the corners and broken 
glass covered the cement floors. My son's favorite shirt lay 
half-burned on the path in front of what used to be his 
bedroom. The lives of my family and the lives of our neighbors 
were forever changed.
    Since that time, much has happened. The war in Sierra Leone 
has taken many turns and now we wait as a peace accord has been 
signed. My husband is in Sierra Leone and is working with 
others in the NGO community and the government to get food to 
the hungry people in parts of the country that have been cut 
off. Last week, they negotiated with the RUF to deliver food to 
Kabala, the main city in the north. The convoy carrying rice 
and seed rice got as far as 60 miles from Kabala, and there 
they were stopped. The RUF commandos told them they could not 
guarantee their safety in Tamaboro country. Everyone returned 
to Freetown.
    I have not been in Sierra Leone myself since 1997, but 
before I left, I was able to spend short periods of time back 
in the village. I watched people come back into their villages 
and begin to rebuild their homes and lives. Displaced people 
would wander into the village.
    But during this past year, much of what was rebuilt then 
has been destroyed. Whole villages in the area have been 
leveled. Many people live on their farms and others have moved 
to Freetown. The whole of the north is rebel-held territory.
    More recently, I met with some of our Sierra Leonean staff 
at a conference in Dakar, Senegal. Each one described the 
terror that they and their families lived through in the 
January attacks on Freetown. They told us how Paul, the 
carpenter who built our houses, was captured and killed. He 
refused to let the captors cut off his hands. A young rebel 
shot him in the stomach and then in the head. Paul's 4-year-old 
grandson was wounded by the bullet that killed his grandfather. 
Paul is the same carpenter who I saw pushing his wheelbarrow 
full of tools away from Foria.
    Betty, a nurse working for ICRC, adopted the two daughters 
of a woman she attended in labor and delivery. The woman died 
because she had had both of her arms cut off by rebels who 
attacked her village in the north. She did not have the will to 
survive.
    Others told of utter panic when their doors were pushed 
open by drug-crazed small boys. Eric escaped with machete 
wounds to his head. Dickson and Marah took turns dancing and 
singing praises of the RUF around the clock for 3 days. They 
danced to save their families from being killed by the young 
boys who had commandeered their house.
    Refugees come from these places. Refugees have escaped from 
these same scenes. They are the ones who got away. They have 
traveled far and left all. They have been separated from family 
and neighbors by the chaos of war. They threw their children on 
departing boats and jumped in after them. They traveled 
hundreds of miles by foot. They were taunted by the name 
``refugee'' as they passed through towns.
    But refugees are brave people. They are determined to get 
on with living. Refugees who come to the United States have 
been given a hope of a better future. I have seen the 
excitement of people getting a home ready, the satisfaction of 
helping to find the right job, and the joy of seeing a family 
settled. I have much respect for these, our new friends. They 
share with us the load of their experiences. They give us the 
gift of their determination. They teach us that we are 
neighbors in this broken world.
    Senator Abraham, I sincerely appreciate the opportunity you 
have given to me to share with you and members of this 
committee something of the story of Sierra Leone. I thank you 
for your time and for listening to us today. Please continue 
your good work for all of our sakes.
    Senator Abraham. Thank you.
    [The prepared statement of Mrs. Kortenhoven follows:]

              Prepared Statement of Mrs. Mary Kortenhoven

    Thank you Senator Abraham for inviting me to come with Binta Bah to 
this hearing. My name is Mary Kortenhoven and I am a missionary to 
Sierra Leone from the Christian Reformed Church. I have served in 
Sierra Leone since 1980 and am waiting to return as soon as that is 
possible. I deeply appreciate the privilege of being able to give my 
own brief statement and to read Binta's testimony. I am also glad to 
have the opportunity to say thank you to you, Senator Abraham, for the 
leadership that you have given on policy issues affecting refugees and 
asylum seekers. We are fortunate to have a Chair of this committee who 
cares so much about the protection and humanitarian assistance for 
these most vulnerable people.
    I feel that I represent two sides in this story. I come as one of 
the ``good folks'' in West Michigan. I represent the compassionate ones 
who have welcomed the strangers. They are people who are very concerned 
about the millions of refugees and displaced people all around the 
world. The people in West Michigan care very much about what is 
happening to people in Africa. I also feel qualified to represent the 
refugee side of the story. I have been forced from my home by war three 
different times. The first was in 1967 when the Biafran War began in 
Nigeria. The second time was in 1994, when rebels of the RUF 
(Revolutionary United Front) marched into the area where we were living 
in Sierra Leone. The third was when Freetown was besieged by heavy 
firing during the coup in 1997 in which the AFRC (Armed Forces Ruling 
Council) took control of Sierra Leone.
    A refugee does not choose to be a refugee. We all think ``that will 
never happen to me!'' And everyone who is forced to leave her home 
thinks ``this will be over in a few days and I will be able to return 
to my home.'' I know I thought these things when my family had to leave 
our home of fourteen years in Foria, a village in the North of Sierra 
Leone. We left at the same time that Binta was forced from her home in 
Sefadu, a hundred miles to the East of Foria. We woke up to the news 
that rebels had burned a town twenty miles away and were entering a 
village ten miles away. I went from room to room in my house wondering 
``what should I take?'' and I was thinking ``no, I can't fill the car 
with my stuff!'' I left with six women and six children in the vehicle. 
We cried for miles as we passed neighbors running on foot with loads on 
their heads and children on their backs. We passed a carpenter with his 
wheelbarrow full of tools. All had the look of terror on their faces. 
Mothers put more children through our windows. We met young men manning 
roadblocks in deserted villages. We told them to just run, the 
roadblocks were useless. Mothers were crying for children that they 
could not find. We saw the children further down the road and told them 
to sit and wait for their mothers. I will never forget that exodus.
    I was able to return to the village a month later. There was 
nothing left of our house. It was a burned out shell. Scraps of charred 
paper were stuck in the corners and the broken glass covered the cement 
floors. My son's favorite shirt lay half burned on the path in front of 
what used to be his bedroom. The lives of my family and the lives of 
our neighbors were forever changed.
    Since that time much has happened. The war in Sierra Leone has 
taken many turns and now we wait as a peace accord has been signed. My 
husband is in Sierra Leone and is working with others in the NGO 
community and the government to get food to the hungry people in parts 
of the country that have been cut off from food and medicine for 
months. Last week they negotiated with the RUF to deliver food to 
Kabala, the main city in the North. The trip was to take place on 
Wednesday, July 27th. A convoy carrying rice and seed rice got as far 
as a village 60 miles from Kabala and there they were stopped. The RUF 
commandos told them they could not guarantee their safety in Tamaboro 
country. Everyone returned to Freetown.
    I have not been in Sierra Leone since 1997 because the U.S. embassy 
has declared it an unaccompanied post. But before I left I was able to 
spend short periods of time back in the village. I watched the people 
come back into their villages and begin to rebuild their homes and 
lives. Displaced people would wander into the village. One woman who 
came was pregnant and severely anemic. She had been walking for weeks. 
Everyone she knew had disappeared. She died shortly after delivery. The 
community health worker adopted her son. During this past year much of 
what was rebuilt back then has been destroyed. Whole villages in the 
area have been leveled. Many people live on their farms and others have 
moved to Freetown. The whole of the northern part of the country is 
rebel held territory.
    More recently I met with some of our Sierra Leonean staff at a 
conference in Dakar, Senegal. Each one described the terror that they 
and their families lived through in the January attacks on Freetown. 
They told us how Paul, the carpenter who built our houses was captured 
and killed. He refused to allow his captors to cut off his hands. A 
young rebel shot him in the stomach and then in the head. Paul's four 
year old grandson was wounded by the bullet that killed his 
grandfather. Paul is the same carpenter who was pushing his wheelbarrow 
full of tools away from Foria. Mabereh told how she and her children 
narrowly escaped ambush on the road as they fled an attack on Kabala. 
Betty, a nurse working for ICRC, adopted the two daughters of a woman 
she attended in labor and delivery. The woman died because she had had 
both of her arms cut off by rebels who attacked her village in the 
North. She did not have the will to survive. Other men and women told 
amazing accounts of selfless bravery in a helpless time. They told of 
utter panic when their doors were pushed open by drug crazed small 
boys. Eric escaped with machete wounds to his head. Dickson and Marah 
took turns dancing and singing praises of the RUF around the clock for 
three days. They danced to save their families from being killed by the 
young boys who had commandeered their house.
    Refugees come from these places. Refugees have escaped from these 
same scenes. They are the ones ``who got away''. They have traveled far 
and left all. They have been separated from family and neighbors by the 
chaos of war. They threw their children on departing boats and jumped 
in after them. They traveled hundreds of miles my foot. They were 
taunted by the name, refugee, as they passed through strange towns. 
Sometimes the refugees were beat up by the border guards or city 
policemen for not having the right papers. But refugees are brave 
people. They are determined to get on with living. Refugees who come to 
the United States have been given hope of a better future. The work 
that I do with PARA, an affiliate of Church World Service, in Grand 
Rapids, Michigan, has allowed me to be a positive force in the lives of 
both the refugees and the communities who welcome them. I have seen the 
excitement of people getting a home ready, the satisfaction of helping 
to find the right job, and the joy of seeing a family settled. I have 
much respect for our new friends. They share with us the load of their 
experiences. They give us the gift of their determination. They teach 
us that we are neighbors in this broken world.
    Senator Abraham, I sincerely appreciate the opportunity you have 
given me to share with you and the members of this committee something 
of the story of Sierra Leone. I thank you for your time and for 
listening to us today. Please continue your good work for all of our 
sakes.

    Senator Abraham. We welcome you.

                     STATEMENT OF BINTA BAH

    Mrs. Bah. My name is Binta Bah. I am Binta Bah, a refugee 
from Sierra Leone. I tell you people thank you from the United 
States.
    Senator Abraham. Thank you, and welcome. We are happy you 
are here. Mary, if you want to proceed.
    Mrs. Kortenhoven. I want to say thank you to Senator 
Abraham and the Senate Immigration Committee for inviting me to 
give my testimony this afternoon. I am grateful to tell my 
story, which represents the story of so many of my Sierra Leone 
sisters and brothers. Thank you for taking time to listen and 
learn about our situation.
    I am 32 years old. I was born in the town of Sefadu in the 
eastern part of Sierra Leone. Sefadu is in the heart of the 
diamond mining area of the country. I entered the United States 
on May 27. I came with my two sons, Mohamed, who is eight, and 
Saiko, who is three. My sister, Anti, who is 16, also came with 
us. We came from the refugee camp in Basse, Gambia. I was 
resettled by Church World Service and received by people from 
two Christian Reformed Churches in Grand Rapids, MI.
    I was living a quiet life in Sierra Leone with my husband, 
Abdulai Jawo. We had been married 5 years and had two children, 
Mohamed and baby Fatmata. My husband was an inspector in the 
diamond mines and I was a market woman. We lived in a good 
house and had a good life.
    In 1991, a war started in Sierra Leone. For a long time, we 
were not troubled by the war, but then things began to happen 
that I had never before experienced in my life. The rebels 
started to come into the bush around Sefadu. They came because 
they wanted to mine diamonds. The government soldiers would 
come into town and force people to go clear the bush around the 
town. Too much bush made it easier for rebels to come.
    Then the soldiers started to kill the rebels that they 
found. They would come into town with the heads of dead rebels 
on sticks. They would walk around with these heads and we all 
became very frightened. We had never seen anything like it 
before in our lives. The children would hide in the houses and 
were too afraid to play outside. Some children stopped eating.
    My neighbors were like myself. We had never gone anywhere 
far in our lives. We did not know where we could go to get away 
from what we were seeing. We felt very insecure in the town. At 
times, we would feel like our world was shaking, and then it 
would be quiet again. And so we lived for a long time.
    Then one Friday night, the rain pounded on our tin roofs. 
It was a very hard rain, and after the rain, in the early hours 
of the morning, we awoke to the noise of gunfire. The firing 
was coming from three sides of the town. My husband jumped out 
of the window in the back of the house and ran away through the 
bush. I was inside of my room, hiding with my children. My 
daughter, Fatmata, cried, and I heard the rebels say that 
someone must be hiding inside that house. Three rebels broke 
down the door and found us in the room. They said they were 
freedom fighters. They fell on me and raped me. Mohamed was 
crying and went under the bed to hide. Fatmata was crying on 
the bed. I shouted and cried for someone to save me, but no one 
was there to hear my shouting.
    When they left me, I was in a very bad condition, but a 
mother always thinks of her children first and so I tied 
Fatmata on my back and threw Mohamed on my shoulder and ran to 
hide in the bush. I hid for a while and I realized my clothes 
were torn and dirty, so I ran back into my house and quickly 
took some clothes. I ran back to the bush and found others who 
were suffering also. We went into the bush and stayed there. We 
ate cassava and oranges. One woman who was with us gave birth 
and died. The child also died. The husband and his two children 
stayed with us.
    We only knew that we wanted to go to Guinea, but we did not 
know the way. We would get directions as we went from village 
to village. After one month of walking, we reached the border. 
We went to the camp, which was in Kissydugu, Guinea. But the 
camp was so crowded with people and the Guinea people harassed 
the refugees. I looked at myself and decided I had suffered too 
much already and did not want to stay there under those 
conditions.
    I found transport to Labe, Guinea, and then I walked from 
one village to the next. My daughter was very sick with a high 
fever and diarrhea. I had nothing to give her but my breast. 
When I got to the second village, Fatmata died. One good man 
helped me. He went to the people in the village and begged 
money to buy a cloth to bury the child, and he asked the other 
men to help him with the burial.
    Then they helped me to get transport to the town of 
Kundala. When I reached Kundala on the border of Guinea and 
Senegal, I met another lorry carrying palm oil. I heard people 
talking Krio, and so I told them I had come from Sierra Leone. 
They took me with them to the refugee camp where they were 
living, but we went through the bush to get there because if 
the Gambian authorities caught me without identification, they 
would send me back to Sierra Leone, and also, people who did 
not have proper papers were sent to a place called ``No Man's 
Land.'' This was a place of punishment. The man who was the 
head of the camp went with me to Banjul and begged for me so 
that I could get the right papers.
    After I was in the camp for a short time, my son, Saiko, 
was born. He was born in the clinic in town. He was healthy and 
I returned to the camp. When I was first in the camp, we had a 
regular supply of food, but the supply was cut off and we had 
nothing.
    One day, the rebels from the Casamance in Senegal came and 
attacked the town of Farefinye in Gambia. The Gambian people 
said the rebels were speaking Krio, Fula, and Mandingo. So 
early in the morning, the Gambian soldiers came and surrounded 
the refugee camp. They opened the doors of our houses and 
pulled people out.
    After that, the immigration people from Kenya came to 
interview us. At the time of my second interview, my sister, 
Anti, found me at the camp. She came from Guinea, so I could 
put Anti on my application. My other sister, Tata, came much 
later and there was no chance for her in that interview. When 
Tata came, she told me that my husband, Abdulai, was killed in 
the attack on Sefadu. She saw his body when she went back to 
look for our mother and father and brother. She did not find 
any of them, but she saw my dead husband's body.
    So this man, Ali, was with me in the camp and helped me. 
When I heard my husband was dead, I thought it is better for a 
woman to be with a man, and so I decided to marry Ali. We sent 
the marriage papers to Joiner to show him that we were married. 
Joiner is the man who works for the UN in Banjul.
    Now I am here. I want to tell you many things. Thanks to 
the United States for giving refugees a new home. Thanks to 
Church World Service for helping to bring us here. And a very 
special thanks to my sponsors in Grand Rapids.
    I am happy. When I came to this place, I felt nothing could 
get me except God. Life here is sweet, but if you get your man 
beside you to encourage you, life is fine. People here are good 
and everything here is OK for me.
    I know I cannot return to Sierra Leone. Everything that my 
grandfather did, everything my father did, everything my 
husband, Abdulai, did is gone. People who have come from Sierra 
Leone tell me all our houses are gone. Rebels are digging for 
diamonds in the very places our houses stood. Sefadu is in 
rebel-held territory. The people are hungry and children are 
dying. I do not like to think about it. The only thing is that 
I remember my mama and my pa and my small brother and my 
husband and my sister. I have my life. I did not die, but 
sometimes, I cannot sleep. I remember.
    Senator Abraham. Thank you for being here today.
    [The prepared statement of Mrs. Bah follows:]

                  Prepared Statement of Mrs. Binta Bah

    Good afternoon Mr. Chairman, members of the committee, ladies and 
gentlemen. My name is Binta Bah.
    I want to say thank you to Senator Abraham and the Senate 
Immigration Committee for inviting me to give my testimony this 
afternoon. I am grateful to tell my story which represents the story of 
so many of my Sierra Leonean sisters and brothers. Thank you for taking 
time to listen and learn about our situation.
    I am thirty two years old. I was born in the town of Sefadu in the 
Eastern part of Sierra Leone. Sefadu is in the heart of the diamond 
mining area of the country. I entered the United States on May 27, 
1999. I came with my two sons, Mohamed, who is eight years old and 
Saiko, who is three years old. My sister, Anti, 16, also came with us. 
We came from the Kerr-Al Hassan refugee camp in Basse, Gambia. I was 
resettled by Church World Service and was received by the people of two 
churches in Grand Rapids, Michigan. (Woodlawn Christian Reformed Church 
and Madison Square Christian Reformed Church).
    I was living a quiet life in Sierra Leone with my husband, Abdulai 
Jawo. We had been married five years and had two children, Mohamed and 
baby Fatmata. My husband was an inspector in the diamond mines and I 
was a market woman. I would go to another town and buy green bananas 
and sell them to other market women. I also did cookery, selling small 
cakes at my market stall. We lived in a good house and had a good life.
    In 1991 a war started in Sierra Leone. For a long time we were not 
troubled by the war but then things began to happen that I had never 
before experienced in my life. The rebels started to come into the bush 
around Sefadu. They came because they wanted to mine diamonds. The 
government soldiers would come into town and force people to go out to 
clear the bush around the town. Too much bush made it easier for the 
rebels to come into town unnoticed.
    Then the soldiers started to kill the rebels that they found. They 
would come into town with the heads of dead rebels on sticks. They 
would walk around with these heads and we all became very frightened. 
We had never seen anything like this before in our lives. The children 
would hide in the houses and were too afraid to play outside. Some 
children stopped eating. My neighbors were like myself, we had never 
gone anywhere far in our lives. We did not know where we could go to 
get away from what we were seeing. We felt very insecure in the town. 
At times we would feel like our world was shaking and then it would be 
quiet again. And so we lived for a long time.
    Then one Friday night the rain pounded the tin roofs of our houses, 
it was a very hard rain and after the rain in the early hours of the 
morning we woke to the noise of gunfire. The firing was coming from 
three sides of the, town. It was very loud and we were very frightened. 
My husband jumped out of the window in the back of the house and ran 
away through the back into the bush. I was inside of my room hiding 
with my children. My daughter, Fatmata cried and I heard the rebels say 
that someone must be hiding inside the house. Three rebels broke down 
the door and found us in the room. They said that they were Freedom 
Fighters. They fell on me and raped me. Mohamed was crying and went 
under the bed to hide. Fatmata was crying on the bed. I shouted and 
cried out for someone to save me but no one was there to hear my 
shouting.
    When they left me I was in a very bad condition. But a mother 
always thinks of her children first and so I tied Fatmata on my back 
and threw Mohamed on my shoulder and ran out to hide in the bush. After 
I hid there for awhile I realized that my clothes were torn and dirty 
and so I ran back to my house and quickly took some other clothes. I 
ran back into the bush and there I found others who were suffering also 
from the attack. We went into the bush and stayed there. We ate cassava 
and oranges that we found along the way. One woman who was with us gave 
birth and died. The child also died. The husband and his two children 
stayed with us.
    We only knew that we wanted to go to Guinea but we did not know the 
way. We would get directions as we went from village to village. After 
one month of walking we reached the border. We went to the camp which 
was in Kissydugu, Guinea. But the camp was so crowded with people and 
the Guinea people harrassed the refugees. I looked at myself and 
decided I had suffered too much already and did not want to stay there. 
under those conditions.
    I found transport on a lorry to Labe, Guinea. I had to beg the 
driver for a long time to take me. When I got to Labe I waited three 
days for another lorry. The driver talked to me fine and told me to go 
to another junction where I would find transport to the Gambia. I 
walked from one village to the next. My daughter was very sick with a 
high fever and diarrhea. I had nothing to give her but my breast. When 
I got to the second village Fatmata died. One good man helped me. He 
went to the people in the village and begged money to buy a cloth to 
bury the child. And he asked the other men to help him with the burial.
    Then they helped me to get transport to the town of Kundala. 
Kundala is on the border of Guinea and Senegal. I rode on a lorry with 
dried animal skins. When we reached a check point I met another lorry 
that was carrying palm oil. I heard people taking Krio and so I told 
them that I had come from Sierra Leone. They took me with them to the 
refugee camp where they were living.
    We went through the bush to get there because if the Gambian 
authorities caught me without identification they would send me back to 
Sierra Leone. And also people who did not have proper papers were sent 
to a place called ``No Man's Land''. This was a place of punishment. It 
was bush with no trees and no food. People really suffered in this 
place. The UN knew about this place and they knew that many Sierra 
Leoneans had been sent there and so they begged the government of 
Gambia to allow people to be registered in the camp. The man who was 
the head of the camp went with me to Banjul and begged for me so that I 
could get the right papers.
    After I was in the camp for a short time my son Saiko was born. He 
was born in the clinic in town. He was a healthy baby and I returned to 
the camp right after he was born. When I was first in the camp we had a 
regular supply of food but the supply was cut off and we had nothing.
    One day the rebels in the Casamance came and attacked the town of 
Farefinye in the Gambia. The Gambian people said that the rebels were 
speaking Krio, Fula, and Mandingo. So early in the morning the Gambian 
soldiers came and surrounded the refugee camp. They opened the doors of 
our houses and tents and pulled people out. The soldiers went inside 
and checked all the rooms and then they came out and searched our 
pockets. When this happened we became very afraid and for three days 
and nights we sat by our doors. We did not sleep. We just sat and 
worried. The women suffered because we did not get any supplies of 
food. We usually would collect firewood and take it to the market in 
Basse to sell, but now the Red Cross ID was rejected by the Gambian 
officials and so we could not take firewood to the market. We were 
suffering like that when the woman came from Dakar, Senegal, to 
interview us.
    After that the immigration people from the JVA (Joint Volunteer 
Agency/Kenya) came to interview us. It was at the time of the second 
interview that my sister, Anti, found me at the camp. She came from 
Guinea. So I could put Anti on my application. My other sister, Tata, 
came much later and there was no chance for her in that interview. When 
Tata came she told me that my husband, Abdulai was killed in the attack 
on Sefadu. She saw his body when she went back to look for our mother, 
father, and brother. She did not find anyone of them but she saw my 
dead husband's body.
    So this man Ali was with me in the camp and he helped me with 
collecting firewood and with my children, Mohamed and Saiko. When I 
heard that my husband was dead I thought that it is better for a woman 
to be with a man and so I decided to marry Ali. I wanted it to be a 
traditional wedding because I wanted it to be important. Ali gave one 
sheep and two hundred dalacies and we had a proper wedding at the camp. 
We sent the marriage papers to Joiner to show him that we were married. 
Joiner is the man who works for the UN in Banjul. Ali said that I 
should not spoil my chance to go to the U.S. So I took Tata and left 
her with Ali to look after.
    Now I am here. I want to tell you many thanks--thanks to the United 
States for giving refugees a new home, thanks to Church World Service 
for helping to bring us here, and a very special thanks to my sponsors 
in Grand Rapids, who have helped my family so much and have become my 
friends. I am very happy. These people pulled me from much suffering. 
All of time that I was in the Gambia I felt that my life was still at 
risk. I expected that at any time I could die. When I came to this 
place I feel that nothing can get me unless God. Life here is sweet but 
if you get your man beside you to encourage you--life is fine! People 
here are so good and everything here is okay for me. I know that I 
cannot return to Sierra Leone. Everything that my grandfather did, 
everything that my father did, everything that my husband, Abdulai, did 
is gone. The houses are all destroyed. People who have come from Sierra 
Leone tell me that all of our houses are gone. Rebels are digging for 
diamonds in the very places where our houses stood. Sefadu is in rebel 
held country. The people are hungry and children are dying. I do not 
like to think about it. The only thing is that I remember my mama and 
my pa and my small brother and my husband and my sister. I have my 
life, I did not die but sometimes I cannot sleep--I remember.

    Senator Abraham. We turn to you now, Bishop DiMarzio.

               STATEMENT OF NICHOLAS A. DiMARZIO

    Bishop DiMarzio. Thank you, first, Mr. Chairman, for your 
leadership and that of Senator Kennedy, the minority leader on 
this committee. You certainly have given much time and effort 
to making sure that refugees have an opportunity in the United 
States. We appreciate that very much.
    I am Bishop Nicholas DiMarzio, Chairman of the Bishops' 
Committee on Migration of the U.S. Catholic Conference, and 
prior to that, I was Director of Migration and Refugee Services 
for the U.S. Catholic Conference for a period of 6 years, so I 
have had a long history of resettlement, actively engaged in 
resettlement and also working at the policy level with the 
bishops.
    Our concerns today really are regarding the decrease in the 
admissions over the last 7 years. We really have gone 40 
percent less than what we could have done. I think we can do 
more and we should do more. The need is there and the capacity 
to resettle refugees in the United States is also there, and we 
are not really reaching the need, nor are we exhausting our 
capacity.
    I would like to look at certain special populations that I 
would like to emphasize as really in need of resettlement. 
First would be the unaccompanied minors. The unaccompanied 
minors are a special population in refugee camps that really 
are in need of resettlement. For the most part, they will not 
be able to return to their places of origin. They have lost 
their families, for the most part, also, and really should have 
an opportunity for resettlement in the United States. We have 
been very generous in the past, resettling almost 10,000 
unaccompanied minors in the last several years. However, in the 
last 3 years, we have only resettled 50 unaccompanied minors in 
the United States.
    The U.S. Catholic Conference and the Lutheran Immigration 
Service recently undertook a trip to the Kakuma camp in Kenya, 
and we have a report that I would like to submit for the 
record.
    Senator Abraham. We will be glad to accept it.
    Bishop DiMarzio. This report outlines the need there and 
also, from the two agencies that are involved in the 
unaccompanied minors program, we can assure you that the 
capacity is there and the results that have been taken from the 
refugee unaccompanied minor program are really spectacular. 
There have been success stories that we can share.
    Bishop DiMarzio. Also, we would like to look at the 
situation in Africa. We just learned today at the earlier 
testimony that there will be an increase in numbers, and we are 
happy for that increase, but I do think we still have room to 
improve the numbers there. There is a real need. We need to 
certainly look at various situations there. There is more than 
one country in need and we are really happy that there is some 
movement.
    Also, we need to look at women at risk. As you have heard 
already from the testimony just before, how difficult it is for 
women who are alone in these camps to really survive. We need 
to look at them as a special category for our attention.
    Finally, something that does not apply strictly to the 
refugee issue but to the asylum issue in this country is 
something we need to look at. The law of 1996 that enabled the 
expedited removal to take place has really wreaked havoc on 
those who have come to the United States directly looking for 
asylum. Although there are problems in the asylum program, 
having this expedited removal has really taken away from many, 
many people the opportunity for a fair hearing in the United 
States. It is something that I do not think our country really 
should be proud of. I think we should really work on changing 
that.
    To the Kosovo situation for a minute. I think, as you said, 
it was a model program. It really brought together all of the 
best elements that we could bring to dealing with the refugee 
situation. First, from diverting away from Guantanamo, then 
bringing people directly to the United States to relieve the 
overcrowding in Macedonia, encouraging other countries to 
participate because we did participate. Here, I think our 
policy and humanitarian goals came together for a change. They 
worked together and were able to do a lot for the Kosovars.
    I think, most of all, we have dispelled the myth that 
America is not open to refugees. When there is the proper 
understanding, when the press is there, when people see the 
need, they respond, and we have seen that happen and we need 
to, I think, work on other situations in the same way.
    Unfortunately, as we have heard, the issue of unequal 
treatment is brought up, but all comparisons are really odious. 
What is the case is that we should have the same energy applied 
to all refugee situations so that we can make a difference, so 
that we can, indeed, be proud of the refugee program because it 
does accomplish our foreign policy goals, if only we let the 
country work at it. It has proven that it can be done.
    Finally, there are two recommendations in the full 
testimony. First, we should really reverse the decline in 
admissions. We should target the vulnerable groups for the 
priorities. And second, we should look at enhancing the 
cooperation between the Department of State and the joint 
voluntary agencies. There is this creative tension, as Ms. Taft 
mentioned, but the creative tension should only be something 
that joins us together in a better working relationship. I 
believe in the last several years, that has been weakened and 
we should really try to strengthen it because that partnership 
between government and the private sector is really critical in 
the refugee program, as it is in many places, but also there.
    I think we have proven that we are committed. Catholic 
Relief Services worked in the camps in Macedonia at a moment's 
notice, set up those camps, worked there. Migration and Refugee 
Services, that I represent, was there with all the other 
voluntary agencies. We have a commitment to the betterment of 
the lot of the refugees around the world. We want to work with 
you in improving the admissions numbers. I think we really can 
do better and we should do better. Thank you.
    Senator Abraham. Thank you very much, Bishop.
    [The prepared statement and report of Bishop DiMarzio 
follow:]

           Prepared Statement of Bishop Nicholas A. DiMarzio

    I am Bishop Nicholas DiMarzio, Bishop of Camden, New Jersey, and 
chairman of the National Conference of Catholic Bishops' Committee on 
Migration. It is a pleasure to testify before you today on the vital 
humanitarian topic of refugee admissions to the United States.
    I wish to take this opportunity to thank you, Mr. Chairman, and 
ranking Minority member Senator Edward M. Kennedy, for your long 
support for refugees. I know that Senator Kennedy is one of the authors 
of the Refugee Act of 1980 \1\ and that you both have championed the 
cause of refugee protection and resettlement throughout your tenure in 
the Senate. Your work, and that of this Subcommittee, has resulted in 
protection for literally millions of refugees over the years.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 96-212, 94 Stat. 102.
---------------------------------------------------------------------------
    Mr. Chairman, Church teaching has long supported the protection of 
and respect for the fight of an individual to live in security and to 
flee life-threatening situations, particularly those stemming from 
political oppression and persecution. In 1974, Pope Paul VI succinctly 
articulated the position of the Church in this regard:

        Individuals and groups must be secure from arrest, torture, and 
        imprisonment for political and ideological reasons, and all in 
        society, including migrant workers, must be guaranteed 
        juridical protection of their personal, social, cultural and 
        political rights. We condemn the abridgement of rights because 
        of race. We advocate that nations and contesting groups seek 
        reconciliation by halting persecution of others and granting 
        amnesty, marked by mercy and equity, to political prisoners and 
        exiles.\2\
---------------------------------------------------------------------------
    \2\ Pope Paul VI, Message of Pope Paul VI in (Union with the Synod, 
1974.

    In line with our teaching, the Catholic Church in the United 
States, has long welcomed immigrants and refugees to our shores. Since 
the Refugee Act of 1980, Migration and Refugee Services (MRS) of the 
U.S. Catholic Conference, working with our government and Catholic 
diocesan resettlement programs throughout the country, has resettled 
some 650,000 refugees. That is nearly 32 percent of the total, more 
than any other single agency. As Executive Director of MRS from 1985 to 
1991, I supervised the agency's work and am familiar with the service 
provided refugees both abroad and when they come to our country.
    As you well know, Mr. Chairman, refugees are migrants with a tragic 
difference. Driven outside their country, refugees cannot return home 
for fear of persecution. Having already suffered, sometimes 
unspeakably, they often face years in crowded, primitive, dangerous 
refugee camps. Eighty percent are women and children. For some of these 
people, whether they be fleeing Bosnia, Burma or Afghanistan, 
resettlement in a third country may be their only hope for a life of 
peace, dignity and hope.
    And yet the United States Government has been sharply curtailing 
its response to refugees in America. For 1991, the year I ended my term 
as head of MRS, our government set a ceiling of 131,000 refugees from 
around the world to be admitted to the United States. Now, as I return 
to refugee work as Chairman of the Bishops' Migration Committee, I am 
disappointed to find that the admissions limit has been lowered by over 
40 percent. Over a longer time, refugee admissions into the United 
States have dropped even more drastically, from 207,000 in 1980 to a 
ceiling of 78,000 for 1999. This reflects a disturbing trend, 
especially considering the existence of more than 13.5 million refugees 
in the world today.\3\
---------------------------------------------------------------------------
    \3\ World Refugee Survey 1998, U.S. Committee for Refugees.
---------------------------------------------------------------------------
    I am pleased, therefore, to see that the Administration is 
requesting a modest increase in the refugee ceiling for fiscal year 
2000, which represents a welcome start in redressing an unfortunate 
downward trend. However, it is clear, Mr. Chairman, that U.S. 
leadership in the area of refugee protection is in decline. Whether 
because of a shift in how we strategically view the world since the end 
of the Cold War, or reflective of a decision by our leaders to turn 
inward, the United States is increasingly abdicating its worldwide 
leadership role in refugee protection. It is our view, Mr. Chairman, 
that our refugee policy should be reexamined to adjust to the post-Cold 
War realities in the world and to restore the United States' 
international role as a protector of human rights. Such a policy change 
would serve not only humanitarian goals, but also U.S. foreign policy 
interests.
                        the resettlement option
    There are three options, or internationally-recognized ``durable'' 
solutions, which should be pursued in any refugee situation: return of 
the refugees to their homeland if conditions permit; integration into 
the neighboring country which receives them; or resettlement in a third 
country. The best solution for refugees is that they return home safely 
and voluntarily, or, in the alternative, resettle in the country of 
``first'' asylum or within the geographic region. But for those with no 
other option, resettlement in a third country, such as the United 
States, should remain a viable alternative.
    Not all refugees want or need resettlement in a third country. In 
fact, less than one percent of the world's refugees ever gain permanent 
residence elsewhere. For many of them, however, it often represents the 
only alternative to years of confinement in a refugee camp or a 
dangerous, uncertain existence as outcasts in countries that do not 
want them. To consign refugees to such unfortunate circumstances is, 
indeed, intolerable.
    When the United States accepts refugees, we protect those involved, 
reduce the chances that ``first-asylum'' countries will send refugees 
back to their persecutors involuntarily, and provide the leadership 
necessary to encourage other wealthy nations to accept refugees. By so 
doing, we also reaffirm a tradition of compassion that separates us 
from much of the world.
    There are those who question whether sufficient need exists to 
warrant an increase in U.S. refugee admissions. For those who hold this 
view, I recommend a document recently released by the Committee on 
Migration and Refugee Affairs (CMRA) of InterAction, ``U.S. Refugee 
Admissions Program for Fiscal Year 2000.'' The document, prepared for 
this year's refugee admissions consultations, clearly demonstrates 
that, despite the fall of the Soviet Union and its satellite states, 
from which the majority of refugees entering this country used to come, 
the violent situations around the globe that spawn refugees have not 
diminished but increased. One need look no further than the former 
Yugoslavia for confirmation of this unfortunate reality.
    Mr. Chairman, during the Cold War most Americans felt a moral 
obligation to offer resettlement to those fleeing Communist regimes, 
whether Eastern Europeans or Cubans or Indochinese. The same moral 
sense should move us to take a similar view of today's victims, whether 
from the Sudan or Burma or Iraq, who are also fleeing dangers of great 
magnitude.
                      refugee populations globally
    While the CMRA admissions document presents an excellent summation 
of resettlement needs, I would like to highlight for the subcommittee 
several compelling refugee situations around the globe and several 
special refugee populations deserving of protection.
1. Africa
    The resettlement needs of Africa as a whole, where there are now 
some six million refugees and displaced people, are far from being met, 
even after the welcome increase in our ceiling for African refugee 
admissions from 7,000 to 12,000 for fiscal year 1999. Conflicts in 
Sierra Leone, Sudan, Ethiopia, Eritrea, the Democratic Republic of the 
Congo, and Congo-Brazzaville are producing refugees who are victims of 
violence and torture and have little hope of returning to their homes 
in the near future.
    Last year my fellow bishop, John W. Yanta of Amarillo, Texas, 
visited Kakuma camp in Kenya, where he found 55,000 refugees, mostly 
Sudanese. Many had been there since the camp opened in 1992. Since 
then, the world has seen the grisly spectacle of civilian victims, 
mostly women and children, fleeing Sierra Leone with arms and legs cut 
off. Other refugees are scattered all across the continent.
    Just recently, for example, 30,000 people fled fighting in the 
Congo Republic into neighboring Gabon. Because of a lack of 
infrastructure, food resources, and political stability in their 
country, many Liberians who fled violence in recent years remain unable 
to return to their homes. And Sierra Leone continues to produce 
refugees at a steady rate, burdening neighboring countries and 
overwhelming the U.N. High Commissioner for Refugees (UNHCR) and 
private organizations attempting to meet the needs of over 500,000 
refugees.
    MRS and its coalition partners have, for some years, urged the 
State Department to increase the intake of African refugees through the 
U.S. refugee program. While the approved ceiling for African refugees 
has increased, there has been concern in the past that the actual 
processing of African refugees has regularly fallen short of approved 
ceilings. This has not been due to a lack of need but rather to a 
failure to develop adequate processing mechanisms in Africa to identify 
and process those refugees who fall within the processing guidelines 
for admission to the U.S. Refugee program. We expect that, in the 
future, the need for resettlement of refugees from Africa will continue 
to be high and that the ability to identify and process such refugees 
will grow, resulting in increased admissions from that region of the 
world.
2. Southeast Asia
    The United States has provided leadership over the past two decades 
in resettling refugees from Southeast Asia through the Indochinese 
refugee program. During the last days of Saigon to the present day, the 
United States has brought to our shores for protection well over one 
million people with whom we served and fought.
    Now, as we bring this highly successful program to a close, we 
would like to assure fair treatment for those relatively few cases 
which remain. Prominent among these are our former U.S. government 
employees. These are U.S. Embassy and other U.S. agency employees with 
five years or more of service to our country in Vietnam. Because of 
their association with the United States, many have been persecuted 
since the fall of Saigon and are entitled to an appropriate and fair 
review of their cases.
    Despite this fact, approval rates for former employees plummeted to 
less than two percent in 1996 and 1997. In light of the background of 
the applicants and the intent of the program, such a result is 
unacceptable. After strong expressions of concern from senior members 
of Congress and nongovernmental organizations over the past months, the 
Department of State has agreed to open processing for those former 
employees not yet adjudicated. We urge the Subcommittee to continue to 
encourage the State Department to review the denied cases, and to 
institute procedures for all cases that will assure their consideration 
in a fairminded manner.
3. Unaccompanied Refugee Minors
    Unaccompanied refugee minors represent one of the most vulnerable 
groups of refugees, susceptible to military conscription, sexual and 
physical assault, trafficking, and other forms of abuse and violence. 
Thousands of unaccompanied refugee minors, some of whom have lost their 
parents to conflict and are orphans, today are spending their childhood 
years in refugee camps. In recent years, despite our great resources, 
we have welcomed only a tiny handful of these children to our country. 
During Fiscal Year 1997, the United States accepted only one 
unaccompanied refugee minor for resettlement and only eleven 
unaccompanied minors in Fiscal Year 1998.
    For many months now, MRS has been working with the Lutheran 
Immigration and Refugee Services (LIRS), UNHCR, and the State 
Department to establish a carefully-considered program to increase this 
number, resettling children initially from Africa. In June and July 
1998, USCC, LIRS, and UNHCR undertook a joint mission to Kakuma refugee 
camp in Kenya to identify unaccompanied minors and investigate and 
recommend procedural methods for referring minors for resettlement. The 
joint mission identified a group of southern Sudanese youth--commonly 
referred to as the ``lost boys of Sudan''--who share a refugee 
experience of persecution. Most left Sudan as children in 1987 for 
Ethiopia to escape the civil war killings of family members and 
starvation. They experienced further trauma in 1991 when they were 
forced back to Sudan and subsequently fled again, this time to Kenya in 
early 1992. During this period, many of these Sudanese youth were 
forcibly recruited into revolutionary military groups. Mr. Chairman, 
these young people, who have experienced severe trauma and dislocation, 
hold no hope of normal lives without an opportunity for resettlement in 
a third country such as the United States. With your consent, Mr. 
Chairman, I would ask that the final report of the Joint Mission to 
Kakuma Camp be included in the hearing record.
    Considering the special vulnerability of this refugee group, USCC/
MRS recommends that the United States accept at least 500 of these 
minors in Fiscal Year 2000. I know, Mr. Chairman, that a U.S. program 
assisting minors can be successful because, in the 1970's, I 
established the first unaccompanied refugee minor program in New 
Jersey. We welcomed over 500 children during the program's life, and 
the success stories that resulted from our efforts were truly 
impressive.
4. Other Special Populations
    Other special populations deserve consideration for resettlement. 
For example, there exists a large, unknown number of ``women at risk'' 
among the world's refugees who represent prime candidates for admission 
under the U.S. refugee program. They range from Afghan women and girls 
denied access to medical treatment and prohibited from attending school 
by the Taliban to orphaned Rwandan girls who are heads of households 
and caring for their siblings. They also include young girls and women 
fleeing targeted mutilations in Sierra Leone and Chinese women fleeing 
forced abortions and sterilization. Many of these women and girls 
belong to societies whose cultural practices make it hard for them to 
receive the protection they need and deserve. Other vulnerable refugees 
include the elderly without family to care for them, people with 
medical impairments, and boys in danger of forced military 
conscription.
    Many refugees, Mr. Chairman, have something in common: they are not 
always easy for the United States, or even UNHCR, to identify with the 
methods currently in use. That is partly because our own refugee-
identification model was developed in response to outflows like that 
from Indochina, where masses of people fled and were housed in camps 
abroad to which we had direct access.
    Many refugees today, by contrast, are in smaller, scattered camps 
or living on their own, making it more difficult to identify and 
interview them. The State Department is aware of this obstacle to our 
refugee-processing efforts and is working to overcome it. In the coming 
weeks, our agency and others hope to offer the State Department our own 
suggestions for improvements in this vital area.
                         the u.s. asylum system
    At the same time the United States' commitment to refugee 
protection abroad needs to be strengthened, domestic laws which govern 
those who make it to our shores and request protection are overly 
restrictive and unjust. As the Chairman and this Subcommittee is aware, 
the 1996 Illegal Immigration Reform and Immigrant Responsibility Act 
(IIRIRA) \4\ served to weaken asylum protections for those who arrive 
at our ports of entry fleeing persecution.
---------------------------------------------------------------------------
    \4\ Pub. L. No. 104-208, 110 Stat. 3009.
---------------------------------------------------------------------------
    Specifically, the 1996 law created the procedure of ``expedited 
removal,'' which empowers low-level Immigration and Naturalization 
Service (INS) inspectors summarily to remove potential asylum-seekers 
without a hearing before an immigration judge. Under this procedure, 
more than 76,000 individuals were removed from the United States during 
Fiscal Year 1998. While lack of sufficient data and accessibility to 
interviews conducted by inspectors prevents specific conclusions, it is 
likely that in the past few years the United States has returned to 
their persecutors asylum-seekers with valid claims to protection.\5\
---------------------------------------------------------------------------
    \5\ The Lawyers' Committee for Human Rights recently documented two 
cases of Kosovar Albanians being returned to their persecutors.
---------------------------------------------------------------------------
    Other legal and policy changes, such as a one-year filing deadline 
for asylum claims and the detention of asylum-seekers who have 
articulated a credible fear of persecution, contribute to the erosion 
of protections under the U.S. asylum program. Having jurisdiction over 
these issues, Mr. Chairman, we respectfully ask you and the 
subcommittee to review the provisions of the 1996 IIRIRA law affecting 
asylum-seekers and consider their repeal. In order to restore U.S. 
leadership in refugee protection, the Congress and the Administration 
also must restore U.S. commitment to the concept of asylum.
                         the capacity question
    Many agree that there is a real need in the world to resettle more 
refugees. But what about our capacity to absorb more refugees? Has not 
our long involvement with Indochinese, Bosnians and other refugees 
produced a variant of compassion fatigue?
    Not at all. Our own programs find no lack of American families 
enthusiastic about sponsoring and assisting refugees. One indicator is 
the magnitude of the cash and in-kind contributions that come through 
our dioceses--resources that supplement the modest but welcome 
government outlay. Last year these contributions amounted to some $12 
million, all coming from ordinary (or should I say extraordinary) 
working Americans. Our colleague refugee resettlement agencies report 
the same generous enthusiasm.
    For those who question the commitment of the American people to 
refugee resettlement, Kosovo provides a ringing response. The 
overwhelming demonstrations of support and offers of aid from the 
public to the Kosovars have been well documented. Agencies, including 
ours, were deluged with offers of assistance for the Kosovars to whom 
our government offered protection. When Americans see people in 
desperate need, they are quick to help. We are convinced that, if our 
public were shown the sufferings of the Sudanese in Kenya or the 
Burmese in Thailand in same detail as they witnessed the desperation of 
the Kosovars, they would react in the same generous way.
    Furthermore, the agencies, including MRS, which partner with the 
government to provide initial resettlement services are prepared to 
accept a larger number of cases, During the Kosovo crisis, 
nongovernmental organizations and the government worked as a team to 
ensure that all Kosovar refugees brought to the United States were 
unified with their families and into local communities in an 
expeditious manner.
                           lessons of kosovo
    It has become increasingly evident that the U.S. response to the 
Kosovo refugee crisis helped reduce the suffering and save the lives of 
many of the refugees. The coordinated action to facilitate evacuations 
from Macedonia; the offer of resettlement to 20,000 Kosovars as 
refugees; the decision not to use Guantanamo Bay as a temporary 
processing point; and the promise to facilitate and fund voluntary 
repatriation all represented appropriate responses to an emerging 
humanitarian crisis. This model of protection should be applied to 
similar situations around the globe which produce refugees but do not 
draw media attention.
    Just as we can be proud of our response to the Kosovo refugee 
crisis, we can draw from it important lessons for the future. First, 
Kosovo teaches us that U.S. leadership is crucial in ensuring that the 
international community responds to refugee situations. The United 
States' commitment to accept 20,000 Kosovar refugees in the early days 
of the crisis helped precipitate the offers of temporary asylum from 
European allies and other nations. In the end, only 11,000 refugees 
arrived in the United States, many of whom will now be returning to 
their own country. But the United States' important gesture helped 
assure protection for many more.
    Second, the resettlement option can serve not only our humanitarian 
interests but also U.S. foreign policy goals. In particular refugee 
situations, evacuation and resettlement reduce the chances that 
countries of ``first asylum'' will send refugees back to their 
persecutors or close their borders, further destabilizing a war-torn 
region. For example, our announcement of 20,000 places for Kosovars 
helped reassure the Government of Macedonia, at a critical moment, that 
it would not be left alone to cope with an unbearable burden. 
Accordingly, the evacuation by the international community of refugees 
from Macedonia allowed that country to continue to accept Kosovars 
crossing the border: despite an initial statement that it would not 
allow in more than 20,000 Kosovars, Macedonia eventually provided 
protection for over 240,000 refugees. The United States helped make 
that happen.
    A third lesson from Kosovo is that the partnership between the U.S. 
Government and the voluntary agencies which assist it in the 
resettlement of refugees is alive and flourishing. We and our 
resettlement agency colleagues showed once again that, when we are 
asked to respond to a refugee crisis, we have the capacity, resources 
and enthusiasm to do so. Agencies were given only several days to staff 
the reception center at Fort Dix and ready our networks across the 
country for thousands of Kosovars. I was at Fort Dix this past May 7 to 
greet the second flight of Kosovar refugees, and I can assure you that, 
on that day and subsequently, our public/private collaboration worked.
    Fourth, Kosovo reaffirms the truth that refugees rarely want to 
leave their homes, but are compelled to do so out of fear. If 
circumstances allow for their safe return, they go home.
    Fifth is a lesson to which I already alluded: during the Kosovo 
crisis the myth that the American public does not support refugee 
resettlement in the United States was dispelled. Once educated, 
Americans respond positively to the cry of the refugee.
    While there are many lessons from the Kosovo refugee crisis, there 
remain several troubling questions. Many have asked why, for example, 
the United States and other nations did so much for the Kosovars when 
so much less is done for refugees in places like the Sudan, Sierra 
Leone, and the Congo, where long-running crises have condemned millions 
of people to misery and death. I would put the question another way: 
Why can we not more often summon the strength of will and generosity of 
spirit that marked our Kosovo refugee effort? Do we respond to a 
refugee crisis only if we are militarily involved in the conflict that 
spawns it? Do we respond to a crisis only when it grabs the attention 
of the media and subsequently the nation?
    As a nation which should be committed to the cause of human rights 
globally, we must consider these questions. Part of the answer may come 
back to U.S. leadership, which must involve not only the Administration 
but also Congress, the media, and other powerful voices in our society. 
History has demonstrated that courses of action designed to end these 
ongoing tragedies can attract the required public support if they are 
well considered and if the need is adequately explained.
                               conclusion
    Mr. Chairman, the United States must continue to exert leadership 
in refugee affairs. Otherwise, experience shows that the level of 
attention given to the world's refugees and displaced persons will 
surely fall. Leadership includes directing the international spotlight 
to situations of intolerable human suffering and mounting efforts to 
end them. On behalf of the U.S. Catholic bishops, let me conclude with 
several recommendations on how we might better execute our leadership 
responsibilities:

    1. Our great country, which is undergoing a period of unprecedented 
prosperity, should today be accepting at least 100,000 refugees per 
year.
    The immediate need is to reverse the steady, eight-year decline in 
our refugee admissions ceiling. For Fiscal Year 2000, the United States 
should also accept at least 500 unaccompanied refugee minors, redouble 
our efforts to relieve suffering in Africa by increasing our refugee 
admissions from that continent, and expand our efforts to identify and 
find durable solutions for refugees who are especially vulnerable, 
including women at risk, the elderly without families, and those with 
medical impairments.

    2. The U.S. Refugee Program must continue its past emphasis on 
family reunification.
    Some argue that refugees with refugee relatives in the United 
States (designated P-3, P-4, and P-5) are not ``real'' refugees. That 
is wrong: all refugees must satisfy the same criteria. Nor do refugees 
who are relatives displace others more deserving; in fact, their very 
designation puts them in line behind those who are P-2, the designation 
given refugees in groups who are ``of humanitarian interest to the 
United States,'' and those who are P-1, in immediate danger. On the 
positive side, refugee families resettle better when they are together. 
Preserving families should remain a key objective of U.S. refugee 
policy.

    3. The State Department, assisted by the voluntary agencies, should 
continue the search for innovative ways to identify and offer 
resettlement to refugees in situations where access to them is 
difficult.
    The State Department and the voluntary agencies assisting in 
resettlement processing overseas should renew their dedication to a 
working partnership which results in processing that is fair, 
efficient, and cost-effective. The voluntary agencies have a legitimate 
and necessary role, for which there is no adequate substitute. They 
improve the fairness of adjudications by providing an outside voice, 
offer assistance in case preparation that is flexible and cost-
effective, provide a smooth interface with the domestic resettlement 
agencies, and bring to the U.S. refugee program the support of 
important religious, ethnic, and humanitarian constituencies. The 
public/private partnership that this collaboration constitutes must 
continue and be strengthened.

    4. Congress should strengthen the U.S. asylum system.
    ``Expedited removal,'' the procedure whereby low-level Immigration 
and Naturalization Service (INS) officers at ports of entry summarily 
deport asylum-seekers back to the country from which they traveled, 
should be repealed, and judicial review of asylum claims restored. The 
one-year filing deadline for asylum claims for those who reach our 
country, which is insufficient for many who are unaware of the law, 
also should be repealed. Asylum-seekers who articulate a credible fear 
of persecution should not be detained unless they are a threat to 
society.
    Other of our recommendations, Mr. Chairman, fall outside the 
purview of the Judiciary Committee, but I wish to record them 
nonetheless.

  <bullet> The United States should increase assistance for refugees 
        overseas, with a special emphasis on Africa.

    The UNHCR, the international humanitarian agency which assists 
refugees with life-sustaining support overseas until they are able to 
return home, cannot do its job properly when it is underfunded, which 
is the condition of many of its specific programs. While it is right 
for us to expect other nations to pay their fair share, it often is 
U.S. leadership which encourages them to meet their obligations. At a 
minimum, Congress should appropriate full funding of the 
Administration's Migration and Refugee Assistance (MRA) and Emergency 
Refugee and Migration Assistance (ERMA) requests.

  <bullet> The United States should redouble efforts to seek peaceful 
        settlements to wars in countries like Sudan, Angola and the 
        Congo Republic.

    Each of these recommendations, Mr. Chairman, is offered in a spirit 
of humility and a recognition that all of us involved in refugee work--
whether government officials or private agency personnel--are doing our 
best to address complicated and daunting problems.
    Mr. Chairman, it is the view of the U.S. Catholic bishops that the 
United States must make a renewed commitment to refugee protection 
globally. By so doing, we serve our own vital interests and act as an 
example to other nations. Perhaps more importantly, we honor the 
democratic values we espouse, continue a tradition of compassion which 
has long characterized our nation, and offer a beacon of hope to 
suffering refugees around the world. As a model of democracy and 
freedom to millions worldwide, we can and must do more to provide safe 
haven to those who flee persecution.
    On behalf of the nation's Catholic bishops, I thank you and your 
colleagues on the Subcommittee for allowing me the opportunity to 
present our views and for your leadership in this important public 
service.
                                 ______
                                 

         Joint Report On the Resettlement of Sudanese Youth In 
                           Kakuma Camp, Kenya

  Of The United Nations High Commissioner for Refugees, United States 
Catholic Conference, Lutheran Immigration and Refugee Service, U.S.A., 
                            February 1, 1999

                              introduction
    1. Further to the recommendations of the April 1998 meeting on 
unaccompanied refugee minors organized by the United States Office of 
Refugee Resettlement in Washington D.C., a joint mission was organized 
by UNHCR, USCC and LIRS to Kakuma refugee camp in Kenya from 29 June to 
15 July 1998.\1\ The objective of the mission was to assist UNHCR to 
develop an effective methodology for using resettlement as an 
instrument of protection and durable solution for unaccompanied minors 
in a refugee camp context. The mission was to develop practical 
guidance for the proper identification of children in need of 
resettlement.
---------------------------------------------------------------------------
    \1\ The members of this mission were Elizabeth Harshaw, Children's 
Services Specialist, U.S. Catholic Conference, Migration and Refugee 
Services (USCC/MRS); Susan Schmidt, Director of Children's Services, 
Lutheran Immigration and Refugee Service (LIRS); and Maricela Daniel, 
Regional Policy Advisor (Refugee Children), UNHCR Regional Office in 
Addis Ababa.
    Field work was conducted in Kakuma Camp in Kenya. For 12 days, the 
mission met with UNHCR and NGO staff who work directly with the 
unaccompanied minors, with community and religious leaders and with 
groups of minors and young adults living in group and foster care 
arrangements. The mission also met representatives from relevant 
organizations, including UNICEF/Operation Lifeline Sudan (Lokichoggio 
and Nairobi offices), ICRC Tracing Section (Lokichoggio and Nairobi 
offices), Kenyan Red Cross (Kakuma representative), and Radda Barnen 
(Lokichoggio and Nairobi offices). See Annex 2 for details.
---------------------------------------------------------------------------
    2. This report begins with a brief overview of the policy 
references and guidelines for the resettlement of children and 
adolescents. It then considers the specific situation prevailing in 
Kakuma camp and provides a framework for assessing resettlement needs.
             resettlement: policy references and guidelines
    3. The UNHCR Resettlement Handbook is cited in the following 
paragraphs as the authoritative UNHCR reference on resettlement issues 
which has taken into account, and operationalises to the extent 
possible, considerations relevant specifically to unaccompanied and 
separated minors. In accordance with the Convention on the Rights of 
the Child, which establishes that children and adolescents are 
``entitled to special care and assistance,'' the Handbook provides 
guidance on the use of resettlement as a vital instrument of protection 
and a durable solution for unaccompanied minors. Chapter 4 of the 
Handbook states:

        Among cases to be promoted for resettlement, priority attention 
        should be given to those refugees with acute legal and physical 
        protection needs and, in particular, to women-at-risk and 
        unaccompanied children for whom resettlement has been found in 
        their best interests.

    4. Sub-chapter 4.7 refers specifically to children and adolescents. 
The guidelines for the resettlement of unaccompanied minors require:

  <bullet> consistent application of the principle of ``best interests 
        of the child'', in accordance with article 3 of the Convention 
        on the Rights of the Child and Conclusion No. 47 of the 
        Executive Committee of the UNHCR;
  <bullet> a case-by-case examination including the participation of 
        child welfare personnel;
  <bullet> effective participation of the refugee child; and
  <bullet> assessment of the nature and durability of the relationship, 
        when resettlement with a family other than the minors own 
        family is being considered.

    5. The Resettlement Handbook refers to family reunification as the 
primary objective of the resettlement of unaccompanied minors:

        The resettlement of an unaccompanied minor for reasons other 
        than family reunification should not be considered unless, for 
        example, the minor is being cared for by a foster family which 
        is being considered for resettlement, the minor has formed a 
        strong emotional or social bond with the family, and 
        resettlement will not interfere with tracing and reunification 
        with the original family.\2\
---------------------------------------------------------------------------
    \2\ Section 4.7.2 on Minors and Family Reunification refers.

    6. The ensuing sections of the Handbook concerning minors who are 
under physical threat (4.7.3) and minors who are disabled, traumatized 
or in need of medical care (4.7.4) cite several specific situations 
where resettlement may be considered for minors. Minors, due to their 
own actions or perceived actions, may be particularly targeted by 
authorities or other parties and find themselves in circumstances where 
resettlement is perhaps the only solution to ensure their protection. 
If the physical safety of a minor is under sever threat and local 
solutions are not available, immediate resettlement may be the only 
practical means to guarantee his or her protection. As with adult 
refugees, minors who have been traumatized or tortured or who are 
survivors of sexual violence need to be given priority, in particular 
when their condition represents a significant obstacle to leading a 
normal life and to their eventual achievement of self-sufficiency.
    7. It may be difficult for an unaccompanied minor to establish 
refugee status using the same refugee criteria and procedures applied 
to adults. When a child is unable to articulate a claim, or when it is 
not possible to determine the refugee status of a minor, a decision 
should be made as to what durable solution would be in the minor's best 
interest. UNHCR encourages countries to consider the best interests of 
the child when determining the refugee status of a minor, and to 
determine refugee status using the broadest possible interpretation.
    8. Where it is found necessary to resettle a minor who is 
accompanied by family, resettlement should be made possible for the 
minor's family, or the guardian, even if these other family members 
would have no independent grounds for resettlement. The Handbook offers 
the specific guidance that a child evacuated for treatment ``should 
always be accompanied by a close relative, or someone with whom the 
child has an emotional bond. In extraordinary circumstances when this 
is not possible, the child must be accompanied by someone who speaks 
the child's language and can provide emotional support.'' \3\
---------------------------------------------------------------------------
    \3\ Section 4.7.4 on Minors who are disabled, traumatized or in 
need of medical care refers.
---------------------------------------------------------------------------
    9. The sub-chapter in the Resettlement Handbook on refugees without 
local integration prospects (4.9) has particular bearing on the 
situation of the large population of Sudanese refugees in Kakuma Camp, 
since voluntary repatriation is not yet a realistic option encouraged 
by UNHCR nor is local integration allowed by the Kenyan authorities. 
This section states that:

        Under the broad concept of seeking resettlement as a durable 
        solution when resettlement for immediate protection reasons is 
        not necessary, UNHCR may consider promoting resettlement for 
        specific individual cases or even groups.

There is no fixed period for considering resettlement for durable 
solution purposes, but the guidelines do suggest it would usually take 
more than two years to fully explore the possibilities of local 
settlement or voluntary repatriation. While the lack of local 
integration prospects is not considered sufficient grounds for the 
resettlement of children in light of the specific requirements of the 
Handbook, the risk of an indefinite refugee experience should trigger a 
formal best interest assessment and a vigorous family tracing effort.
    10. Interpretation of the ``best interest of the child'' may be a 
rather difficult assessment because it often implies a balance of 
rights that, at times, may be conflicting. The opinion of a child is 
important in the context of resettlement and so it is essential that a 
child is given the elements to give an informed opinion. Consideration 
of the bests interests of the child and of the child's opinion are 
important for making determinations appropriate for a particular child. 
Chapter 7.1 of the Resettlement Handbook offers a fuller discussion of 
the CRC and the four essential elements of the best interests rule:

  <bullet> a set of principles about the developmental needs of 
        children and adolescents;
  <bullet> a set of attitudes that a decision-maker needs to have;
  <bullet> a set of procedures that a decision-maker needs to follow; 
        and
  <bullet> various institutional structures to help ensure rationality 
        and fairness in the decision-making process.

    11. In sum, UNHCR's guidelines and policy orientations attach prime 
importance to the principle of family unity and have established that 
children are best cared by their family and within their community. 
Resettlement of an unaccompanied minor is carried out with caution and 
essentially for family reunion reasons or the preservation of family-
type relationships when it has been ascertained that this is in the 
best interest of the child. When the right to life is at stake or other 
essential rights are threatened and the necessary protection cannot be 
provided in the refugee situation, resettlement may become the best 
solution for the child. In any event, the right to the unity of his/her 
family calls for all measures by those working with refugee children--
UNHCR staff, child welfare specialists, partner agency representatives, 
resettlement program staff and others--to ensure that safeguards are in 
place to preserve the possibility of family reunion.
                    practice at kakuma refugee camp
    12. The following sections of this paper present a framework for 
applying the guidelines concerning the resettlement of refugee children 
in the specific context of Kakuma camp.
    13. Kakuma refugee camp lies some 130 kilometers south of the 
Kenya-Sudan border. It was established in 1992 to accommodate a major 
influx of Sudanese refugees, largely composed of unaccompanied minors. 
The camp population is comprised of diverse ethnic, religious, 
linguistic and political backgrounds, an unbalanced sex ratio in favor 
of males, and a high number of adolescents including 5,080 
unaccompanied minors and young adults. The camp is now hosting refugees 
from southern Sudan, Somalia, Ethiopia and other African countries 
(such as Democratic Republic of the Congo, Rwanda, Burundi, Uganda and 
Liberia) plus a group of persons tentatively registered as Kenyan/
stateless.
    14. The registered camp population was 65,000 in October 1998. 
Sudanese refugees account for about 67 percent of the total camp 
population (45,000). Most of them have fled the protracted civil war in 
southern Sudan between the Government of Sudan and the resistance 
forces, which began and has remained continuous since 1982. Many have 
also left because of the ensuing famine and destruction. The camp 
population continues to grow with the arrival of southern Sudanese.
    15. The refugee youth population of specific concern in the 
following sections are those Southern Sudanese youth who have sometimes 
been referred to as ``unaccompanied minors'' or the ``lost boys of 
Sudan.'' There are significant elements of a shared refugee experience 
of persecution among these youth. They first left Sudan as children for 
Ethiopia in mid-1987, fleeing the civil war killings of family members 
and starvation. The SPLA facilitated the flight to the camps in 
Ethiopia and also forcibly moved some youth to create an educated cadre 
and to train them (and in some cases, deploy them in battle). They 
experienced further traumatic experiences and displacement when they 
had to depart Ethiopia back into Sudan in 1991 and then when they fled 
again in search of safety to Kenya soon thereafter, beginning in 1992.
    16. While commonly referred to as ``unaccompanied minors'' and 
``boys'', roughly half of the 5,000 Sudanese youth are over 18 years of 
age.\4\ Sixty five per cent (3,237) live in group care arrangements and 
the remaining 35 per cent (1,739)--mostly the youngest of the 
refugees--are in foster families. Over the years, those working most 
closely with the youth indicate that it is not unusual for the youth to 
re-establish contact with their relatives in the Sudan and some 
occasionally travel to Southern Sudan. At the end of 1996, following 
severe tensions between the Nuer and Dinka communities, the Nuer youth 
were separated to their own area: 325 Nuer youth are in group care and 
201 are in the foster care with 47 families.
---------------------------------------------------------------------------
    \4\ The statistics of the Sudanese youth in Kakuma camp need to be 
updated. Following is the breakdown by age and type of care, as of 
March 1998.
---------------------------------------------------------------------------
                  social and protection considerations
    17. A key point of departure in the development of the psycho-
social support programmes was the need to assist the children to cope 
with the sudden separation from their families and the witnessing of 
atrocities committed to their families and villages, and to offer 
protection to the children in a culturally sensible manner. Much has 
been done on their behalf, but still many do require continued special 
care. The assistance programme for the refugee youth has had a strong 
focus on education, and many have reached the highest levels of 
education available in Kakuma camp. The programme has also offered them 
skills training activities (such as tailoring, carpentry and masonry), 
sports and recreation equipment, and supplementary assistance (shoes, 
clothing, etc.).
    18. Channels for communication with relatives and others in 
Southern Sudan exist through Red Cross messages, from news brought by 
new arrivals and/or from personal visits to Sudan. Many of the youth, 
however, still long for their families and some suffer from the lack of 
information of family members at home. The impact on the youngest is 
most felt and requires continued attention. Indeed, one third of the 
484 children in Kakuma with special needs--including physical or mental 
disabilities--are from among the refugee youth who fled to Ethiopia and 
after returning to Sudan, fled once again to Kenya. For the older among 
them, the lack of family support becomes more acute when it comes to 
rites of passage, especially marriage. Most of the young men have no 
means to pay the traditional bride price and so their prospects for 
marriage, with honour to the family and thus adherence to traditional 
norms, are limited. Constraints in following the customary rites of 
passage, and the lack of resources for traditional marriage practices, 
are disruptions affecting all youth (including those within families) 
in the refugee camps.\5\
---------------------------------------------------------------------------
    \5\ With respect to marriage and bride price arrangements, families 
of youth within family settings reportedly are sometimes able to make 
their arrangements based upon promises of future payments, while this 
is not possible for those cut off from their family.



                                            Under 18                   Over 18                   Totals

Group Care.......................  1,291                      1,946                     3,237 (65%)
Foster Care......................  1,239                        503                     1,742 (35%)
Totals...........................  2,530 (51%)                2,449 (49%)               4,979




 Group Care Breakdown                     Under 18                                     Over 18

                         9 years old:      1                         18 years old:    739
                        10 years old:      0                         19 years old:    617
                        11 years old:      2                         20 years old:    349
                        12 years old:      1                         21 years old:    137
                        13 years old:     14                         22 years old:     49
                        14 years old:     46                         23 years old:     26
                        15 years old:    181                         24 years old:      3
                        16 years old:    393                         25 years old:      6
                        17 years old:    670                         26 years old:      2



    19. Many of the refugee youth in Kakuma have been living during 
their most formative years in a group care arrangement, as opposed to 
family-based foster care. While the lack of family protection might in 
some cases make these youth more vulnerable to forced recruitment to 
military groups or banditry, their awareness of children's rights 
through camp-based educational/training activities, and their 
separation from family-based pressures to ``serve the rebellion'' also 
renders these youth more resistant to pressures from the community (to 
be drafted, for example) and to be independent of one or another rebel 
faction.
    20. In Ethiopia and in Kakuma, the psycho-social programmes for 
these youth were organised and supported by Radda Barnen. After Radda 
Barnen left Kakuma at the end of 1997, the Lutheran World Federation 
(LWF) assumed responsibility for implementing the psycho-social 
programme. The system of group care is culturally-sensitive and has 
allowed the children to survive a series of very negative and traumatic 
experiences. Some staff claim that the youth are ostracised by the 
community and regarded, even beyond 18, as ``minors'' because most have 
been unable (or unwilling) to go through the customary/traditional 
rites of passage. It is important to note, however, that the disruption 
of these traditional rites has had a much more general impact on young 
refugees in the camp, in general, not just those who are unaccompanied 
or separated from their families. There are also strong indications 
that the lack of some or all elements of these traditional rites is 
being accepted, increasingly, as one of the many changes brought about 
by war and the refugee situation. While it appears to be the case that 
the general refugee community feels less responsibility for the youth 
because they have received extensive and focused attention and direct 
benefits from international agencies, researchers, journalists and 
others, this does not equate with ``ostracism.''
                           durable solutions
    21. It is reported that more than 100 of the refugee youth have 
returned to Sudan on their own to serve as teachers or technicians. 
Formal repatriation to Sudan cannot now be promoted or undertaken by 
UNHCR, nor has organised family reunification been possible, because of 
the multiple and ongoing displacements and civil war in Sudan. The 
Sudan Government's requirement that reunifications take place through 
Khartoum is a severe limitation on the ICRC's ability to deliver 
children directly to their parents, once identified. Family tracing 
efforts must nevertheless continue.
    22. Over the years, UNHCR and its operational partners have put 
into place structured programmes for ensuring proper care that has 
allowed the refugee youth to confront the traumas of war and 
displacement and to engage in education and productive activities. 
Nevertheless, there are no prospects for local integration in Kenya.\6\ 
Sudanese refugees will continue to be assisted in the designated camps 
until the conditions allow for their voluntary repatriation, the 
durable solution which will necessarily apply to the vast majority of 
refugees.
---------------------------------------------------------------------------
    \6\ It is important to note that local settlement for Sudanese 
refugees, including unaccompanied minors, in Uganda has been largely 
successful. There is concern that a broad-based resettlement effort in 
neighboring Kenya could serve to disrupt and undermine the viability of 
this local settlement program, by possibly triggering irregular 
movements.
---------------------------------------------------------------------------
    23. During the extended stay in asylum for most refugee youth, a 
more concerted effort should be made to reintegrate them into the 
broader Sudanese community. It is also clear that some of the children 
continue to yearn for their families in Southern Sudan. For those who 
maintain contact with parents or care givers, family reunification 
should be pursued. Those youth who choose (or have) to remain in Kakuma 
until an eventual return to Sudan is possible should have more 
possibilities for secondary school opportunities and vocational 
training.
    24. Resettlement can continue to be used effectively to address the 
needs for protection and durable solutions of some of the refugees in 
Kakuma camp. In accordance with the UNHCR Resettlement Handbook, 
priority must of course be given to those individuals who are facing 
immediate physical protection problems. When specific conditions are 
met, UNHCR may also consider promoting resettlement for refugees who 
will not be able to return home in the foreseeable future who have no 
local integration prospects. In general, resettlement can ensure long-
term protection and provide a durable solution for refugees. Given 
appropriate arrangements for selection and reception, resettlement may 
also provide advanced educational opportunities and the chance of a 
productive future for the Sudanese youth.
                              resettlement
    25. UNHCR has clearly established policies and guidelines on the 
use of resettlement for refugee youth and children, especially those 
who are unaccompanied or separated. These guidelines necessarily focus 
on the individual and, as noted above, they focus on durable and 
interim solutions other than resettlement in most circumstances. Third 
country resettlement for unaccompanied minors is generally not deemed 
appropriate by established UNHCR guidelines unless there is a strong 
family link abroad or the child is facing an immediate physical/legal 
protection problem or has serious medical problems. Being cared for 
within their own community provides the minors with physical and 
emotional protection while awaiting possible repatriation or 
reunification with their own families. A policy which is broadly 
inclusive--which promotes the resettlement of all of the youth as a 
group--is neither well-founded nor possible to implement. Equally, a 
policy which is strict and exclusive--which denies the possibility of 
resettlement--is also not supported. A selective, but open, ``middle 
ground'' approach is needed.
    26. Concerned by the fact that only a very few of the Southern 
Sudanese refugees in Kakuma camp have been resettled under UNHCR 
auspices to date, some American NGO's have recommended that sub-groups 
of the youth population be designated as eligible for direct processing 
by the USA, which would then proceed with an individual assessment of 
their refugee claim only. One NGO, for example, has recommended that 
the following categories be considered for third country resettlement:

  <bullet> boys under 18 years of age;
  <bullet> young adults who are orphans without extended family;
  <bullet> boys and young men who need special protection for whatever 
        reason; and
  <bullet> boys and young men who have particular difficulty 
        integrating into their community.

    27. This approach is not consistent with UNHCR guidelines which 
require a prior, individual assessment of the needs of minors. 
Moreover, the definition of broad categories using such ambiguous and 
loose criteria renders this approach unworkable.
    28. Whereas a group-based approach to eligibility only involves an 
individual determination of the refugee claim, UNHCR must, in the case 
of refugee minors, first establish the need for resettlement and 
determine that it would be in the best interest of the child. Thus, 
UNHCR cannot agree to promote the resettlement of all of the youth 
under the age of 18. As indicated above, the Resettlement Handbook is 
quite clear with regard to unaccompanied or separated minors: 
resettlement should only be considered upon a case-by-case examination. 
The needs of the youth in group care would have to be assessed with the 
assistance of the caregivers in order to establish that resettlement 
would meet the child's best interests. Whereas adolescents could in 
principle express their views, children would require specialised 
attention.\7\ Similarly, in some cases, subject to the requirement that 
it is in the child's best interest (e.g., where strong familial bonds 
have been established, especially where other family links have been 
lost), the youth in foster families would need to be considered for 
resettlement with their host family.
---------------------------------------------------------------------------
    \7\ The CRC applies to everyone below the age of 18 years unless, 
under the applicable law, majority is attained earlier. According to 
the dictionary, a child is a person who has not yet reached puberty or 
sexual maturity, and in common usage it is not applied to anyone over 
14 or 15 years. A person who is no longer a child but not yet an adult 
is an adolescent.
---------------------------------------------------------------------------
              resettlement of refugees above 18 years old
    29. The youth over 18 years old, notwithstanding their social 
circumstance, are no longer minors. From an adjudication point of view, 
these young men are presumably able to articulate their claim to 
refugee status and make responsible decisions regarding resettlement.
    30. UNHCR has again initiated contacts with the refugee community 
to smooth the process for the integration of those youth who are no 
longer minors. In accordance with standard practice, UNHCR refers for 
resettlement those young adults who have protection problems and meet 
the criteria of the Resettlement Handbook. If those from among the 
Sudanese youth who trekked via Ethiopia and Sudan to Kenya who are now 
young men over 18 are designated as being eligible for resettlement as 
a ``group of special concern'' to the United States, UNHCR could agree 
to work with American partners to support processing activities; 
however, only after a rigorous assessment of the fuller and regional 
implications, as discussed below.
    31. In the first place, there are comparable groups of Sudanese 
youth in Ethiopia and Uganda, and in neighbouring Southern Sudan. If a 
resettlement programme is initiated only in Kakuma and based simply 
upon fitting a group definition, there will almost certainly be an 
influx of new arrivals from neighbouring countries, including from 
Sudan. Indeed, in recent months, increased numbers of young men 
declaring themselves to be ``unaccompanied minors'' have been arriving 
at Kakuma. This upswing coincides with the heightened and fairly 
explicit interest of visitors in possible resettlement initiatives.
    32. Secondly, a resettlement initiative targeting the young men in 
Kakuma should not preclude active and early consideration of other 
young refugees, regardless of gender or nationality, in both Kakuma and 
Dadaab who meet the criteria for resettlement. It is understood that 
UNHCR may already proceed with individual referrals of such cases, but 
in the context of an eventual group designation for Sudanese youth, it 
should be explicitly recognised that these other referrals should also 
benefit from any special assessment, processing and reception 
arrangements.
    33. Thirdly, it should be recognised that although the above 18 
year-olds are in a qualitatively different situation from an 
adjudication point of view, they will require specialised counselling 
as they consider whether to apply for resettlement. Moreover, they will 
require special attention in terms of counselling and access to 
services and educational opportunities, upon arrival in the United 
States. UNHCR would therefore request advanced information on the 
nature, scope and duration of psycho-social, education, and material 
support services which will be provided by agencies and service 
providers in the context of a special programme for these young adults.
    34. Finally, given the special profile of this refugee population, 
practical measures would need to be taken to ensure favourable 
consideration of requests on an individual basis for reunion with 
extended family members and links who might not be eligible under 
normal immigration standards but who meet the criteria for the 
``constellations'' of family reunification described in the 
Resettlement Handbook and who would contribute actively to the welfare 
of the young adults in question.
    35. In sum, a group designation by the United States could indeed 
be a positive response to the need for a durable solution for the young 
men. A prior understanding would need to be reached that the common 
experience of persecution and well-founded fear to return to Sudan 
constitute sufficient grounds to meet the refugee definition, as some 
individuals are better able to articulate their situation and claim 
than others. Moreover, as has been the case with other group referrals, 
an action plan and division of responsibilities would be agreed to in 
order to ensure that implementation is fair, speedy and not disruptive.
              resettlement of children under 18 years old
    36. As indicated above, UNHCR can only consider the resettlement of 
unaccompanied or separated minors after a case-by-case examination. A 
group designation for minors would therefore contradict established 
criteria and procedures for the resettlement of children and 
adolescents. For a fuller discussion, please refer to Chapters 4.7, 5.8 
and 7.1 of the Resettlement Handbook.
    37. In the context of Kakuma (and also in the camps in Ethiopia and 
Uganda) \8\ registration for the children should be updated and, for 
each individual case, family tracing efforts should be recorded. 
Existing files for all of the youth registered over time with Radda 
Barnen should serve as a basic reference.
---------------------------------------------------------------------------
    \8\ In Ethiopia, the Sudanese ``unaccompanied minor'' population in 
Fugnido camp numbered some 3,000 in early 1998. There are some 545 who 
are now older than 18 years. In Uganda, there are some 130 minors in 
two Adjumani settlements (Biyaya and Agojo) and a larger number who are 
older than 18 years. There are other Sudanese unaccompanied minors in 
Arua settlements (Rhino and Imvepi), Kitgum (Acholpi) and Masindi.
---------------------------------------------------------------------------
    38. Given the age distribution of the Sudanese youth population in 
Kakuma, it should be possible to undertake an individual, protection-
oriented assessment of the quality of foster or group care of those 
children--beginning with the youngest minors and moving up the age 
ladder--for whom all tracing possibilities have been exhausted. In 
accordance with the Resettlement Handbook, priority attention should be 
given to those children and adolescents:

  <bullet> whose protection or physical security is at risk; and
  <bullet> for whom the quality of care and psycho-social support does 
        not meet minimum standards and the refugee community is unable 
        or unwilling to offer greater support.

    39. Where tracing possibilities have not been exhausted, 
coordinated action by UNHCR, ICRC and responsible NGO's should be 
undertaken to accelerate the tracing effort in a timely manner. Should 
the tracing effort finally be successful, an assessment would be 
undertaken to determine if there are any reasons not to consider family 
reunification as the most appropriate solution. With due consideration 
given to age and maturity of the minor, his/her views should also be 
included in the assessment.
    A resettlement activity for minors should permit all necessary 
facilities, including UNHCR or UNHCR-designated presence at the time of 
the adjudication interview, as individual circumstances require. (It 
should be noted here a couple of cases already referred by UNHCR were 
rejected by INS. The new Guidelines for Children's Asylum Claims 
released on 12 October 1998 by INS should be implemented as part of any 
INS interviews with this population.) The effective participation of 
the refugee children or adolescent must also be assured and their views 
should be taken into account in decisions regarding arrangements for 
themselves and their siblings. Specialised counselling should be 
provided on the procedures and implications of resettlement, including 
advice on the process, from the adjudication interview through medical 
examinations and adjustment to the new environment, where targeted 
services would necessarily be made available and the close ties 
established among the youth over the years would be taken into account.
    40. Another crucial consideration in the event of a resettlement 
action is that relatives, especially siblings, and guardians of the 
unaccompanied minor be clearly documented on UNHCR referrals to 
facilitate unified resettlement or eventual family reunification in the 
United States provided this is in the best interests of the child.
       a suggested methodology for determining minimum standards
    41. The above-mentioned reference documents and guidelines state 
that unaccompanied minors may need resettlement for family 
reunification and foster family accompaniment, actual or feared 
physical threats, and special health needs. The minimum standard for 
assessing the need for resettlement of minors should include the 
situation where an unaccompanied child has experienced, or is at risk 
of experiencing, exploitation, abuse, neglect or ostracism because of 
his or her status as an unaccompanied refugee minor, where other means 
of protection are unavailable or inadequate.
    42. Unaccompanied minors may face greater protection risks as 
compared to accompanied minors because they lack an identifiable adult 
charged with protecting them, advocating for them, and otherwise 
looking out for their best interests. Examples of such situations could 
include: an unaccompanied child forced into inappropriate labor or 
domestic servitude for survival; an unaccompanied child abused by a 
foster family or care-giver; an unaccompanied minor ostracized by his/
her community due to family associations, rape, minority status, etc.; 
an unaccompanied child forced into an undesirable marriage, or 
subjected to a traditional cultural practice to which the child is 
opposed.
    43. It should be noted that, in some cases, alternative living 
arrangements may be possible within the camp. In other cases, the camp 
may have exhausted possibilities, the child may have experienced 
numerous changes in placement already, or the child may remain at risk 
anywhere within the camp. Under these circumstances, where minimum 
standards are not met, resettlement ought to be considered.
    44. To further develop the extent and quality of field-based 
referrals, it is suggested that specific operational instructions be 
prepared. One person within each agency should act as agency 
representative for the collection of this information. The ``risk 
factors'' being experienced by a child or adolescent, such as those 
listed below (or others as identified in other refugee camp 
situations), when identified by field UNHCR or partner agency field 
staff, should be brought to the attention of Senior Protection Officer 
in Nairobi through a referral form, via regular interagency meetings or 
in some other formal and recorded fashion.
   identifying ``risk factors'' for unaccompanied children and youth
    45. In the field of domestic child welfare, one means of 
determining whether a child is in need of protection from abuse or 
neglect, is to look at the risk factors in the child's life. A similar 
approach could be used for unaccompanied minors in a refugee camp. The 
intent of the following paragraphs is to help sensitize UNHCR and NGO 
staff to situations in which unaccompanied youth face particular risks. 
Risk factors include both generalized protection issues, common to many 
refugee camp situations, and protection issues specific to a particular 
camp, region, culture, or conflict. This is not to say that an 
unaccompanied minor in any of the following circumstances is 
categorically in need of resettlement. If these risk factors apply, 
however, there should be further consideration given to protection 
measures, including resettlement, which may need to be taken.
Conscription/Military Recruitment
    46. Unaccompanied youth can be at greater risk of recruitment if 
there is no one to protect them from forced recruitment or to 
discourage voluntary conscription. Unaccompanied youth may be targeted 
for recruitment because there are no adults to protect them from the 
influences of seeking the camaraderie or material benefit of military 
service or seeking revenge on those who persecuted or killed their 
family and relations. In open camps, the presence of undesirable 
elements in a refugee population increases, and there is need to be 
vigilant to the risks which unaccompanied minors face because they do 
not have family to provide support and supervision. Unaccompanied girls 
without an adult to defend them are at even greater risk of being 
targeted and forced to provide sexual services.
Child Abductions
    47. Minors may be targeted for abduction, based on cultural 
traditions or as a tactic of war. Unaccompanied minors may be at 
greater risk of being victim to such a practice if there is no 
identified adult to defend them.
Forced Marriages
    48. In some cultures, young women and girls may be forced into 
arranged marriages. In Kakuma, for example, much older Sudanese men who 
have the resources to pay the dowry for marriage may force adolescent 
girls into marriage. The pressure on girls to marry is made greater by 
the gender imbalance in the Sudanese community in Kakuma (twice as many 
males as females). Unaccompanied girls without adult family members to 
defend their interests may be at greatest risk of forced marriages. 
Even unaccompanied girls fostered by families within the camp may be 
at-risk, since such marriages will bring wealth to the foster family.
Female Genital Mutilation (FGM)
    49. This practice presents one of the few instances in which the 
family and the community imposes harm to the child. In the 
extraordinary event that a girl in a camp situation expresses 
opposition to the practice and requests protection, resettlement may 
need to be considered. Whether or not the girl is accompanied is of 
secondary importance; indeed, an unaccompanied girl may be more likely 
free of the practice.
Inactivity and prolonged stay in the camp
    50. While inactivity can be a problem for all minors in a refugee 
camp, it can pose an even greater obstacle to development for 
unaccompanied minors. Inactivity in a refugee camp situation can add to 
a sense of despair, lead to delinquency, and increase the vulnerability 
of the child to forced military recruitment. Minors in families will 
generally have the additional structural supports and defenses to 
minimize the social and legal risks of inactivity.
    51. A prolonged stay in a refugee camp can create despair for any 
refugee, but a child or adolescent without family support may be 
particularly affected due to developmental needs, lack of family 
structure, lack of adult guidance, loneliness, etc. In the Kakuma 
context, many of the Sudanese youth have passed the last ten, most 
impressionable, years of their lives in a refugee camp.
Satisfying basic needs
    52. Limited access to basic needs, such as food, clothing, shelter 
and water is a problem confronting refugees generally. However, 
deprivation especially impacts children and the elderly. Unaccompanied 
minors are at particular risk because they are younger physically, lack 
shared family resources, have limited life experience and may not have 
adult guidance on how to get by with minimal provisions.
Care arrangements
    53. While foster care has the advantage of keeping children within 
a family environment and within their culture, it also has potential 
dangers if not adequately supervised and supported. The risks to the 
minor may increase as the level of stress on the foster family 
increases, a common predicament in a refugee camp situation. Minors in 
foster care may face greater risk of exploitation for household labor. 
Shared household labor can be a legitimate expectation of any child; 
however, it can also be subject to abuse. Children in foster care are 
sometimes charged to do more household labor than birth children. A 
foster child who is exploited or neglected is vulnerable to feelings of 
despair and, indeed, to health risks.
    54. There are indications that the problems facing Sudanese girls 
in foster care--not necessarily unaccompanied but rather separated from 
their parents and cared by relatives who are by customs responsible--
have been neglected. Because the girls do not speak up about their 
problems, there is a common perception that they do not have any. This 
needs to be established on an individual basis, especially in light of 
the concerns about forced early marriages and potential abuse in 
household labor practices.
Lack of family ties or extended separation from family
    55. The extent of existing family ties, or their total absence, is 
an important indicator of risk for an unaccompanied minor. Those 
without traceable relatives may face greater developmental and security 
risks than children with families, even in the event of physical 
separation. Unaccompanied minors without the developmental and 
emotional support of family, as well as protection and resource support 
of an adult relative, are particularly at-risk. In pursuing timely 
durable solutions for unaccompanied minors, efforts at family reunion 
must be vigorous in respect of the child's need for permanence and 
security.
Special Needs
    56. Children with special needs may require on-going specialized 
care or extra supports, such as special education, assisted mobility, 
personal hygiene, supported interaction with peers, and special medical 
attention and follow-up. Depending on the level of care required to 
attend to their special needs or disability, these youth may be 
difficult to foster. In a refugee camp environment, where resources are 
spread thin, the needs of this population cannot always be met and the 
risks of neglect and exploitation increase.
Groups with special protection needs
    57. While ``special needs'' is generally used to refer to 
individuals with disabilities, it may also refer to sub-groups within 
the broader population which have particular protection or service 
needs. One example is that of the Sudanese unaccompanied youth who were 
taken to Cuba in 1984 for education. Some as young as 10 to 12 years 
old were subsequently transferred to refugee camps in Uganda, where the 
transition was reportedly quite difficult. Another example in Kakuma 
concerns the Nuer population, which is much smaller than the Dinka 
population. There have been occasional problems of relations which 
Kakuma authorities have tried to manage. The need to separate the 
children of minority groups may reflect the possibility that 
unaccompanied minors may face greater protection risks than other 
children.
                operational and resource considerations
    58. Finding durable solutions for unaccompanied minors is time-
intensive. The report to the UNHCR Standing Committee on the Evaluation 
of UNHCR's Efforts on Behalf of Children and Adolescents (EC/47/SC/
CRP50 of 15 August 1997) states that ``the team concluded that a strong 
and well informed protection presence is needed to identify and address 
the specific problems faced by minors'' and goes on to suggest that the 
secondment of child and adolescent welfare and education specialists 
may help to reinforce UNHCR's operational capacity.
    59. In the event of a group designation for young adults, with the 
provisions indicated above, a very careful assessment would be required 
bearing in mind other direct processing experiences based on group 
designations. Additional UNHCR staff support would be required for 
UNHCR offices in the region to prepare name lists for transmission to 
the U.S. Refugee Co-ordinator. Individual identification pictures would 
need to be taken at an early stage to minimise fraudulent manipulation 
of eligibility lists. In addition, UNHCR staff would be responsible for 
preparing individual referrals for other young adults, regardless of 
gender or nationality, in need of resettlement to be considered in 
parallel to the designated group.
    60. As concerns the children and adolescents, UNHCR would need to 
work with ICRC and NGO's to update any existing files and to initiate, 
as required, further tracing efforts. In order to focus attention on 
minors potentially most in need, UNHCR protection and child welfare 
staff would begin with individual assessments of the youngest minors, 
moving up the age ladder.
                               conclusion
    61. Resettlement remains a durable solution available to all 
refugees, including unaccompanied minors. While resettlement is not the 
preferred durable solution for all or even most youth, it is 
nonetheless the only durable solution for some unaccompanied children 
and adolescents. This report presents some considerations to guide an 
assessment of the extent to which minimum standards of care and psycho-
social support are respected. The application of this methodology in 
Kakuma should be monitored closely, before it is tested in other 
refugee contexts.
    62. This paper provides a framework for implementing resettlement 
for the Sudanese youth which takes into account several essential 
considerations relating to UNHCR's guidelines for the protection of 
refugee children, the demographics of the Sudanese youth population in 
the region, and the protection needs of other young refugees. Given the 
very special character of the refugee population involved, a 
comprehensive framework for action needs to be agreed upon before 
proceeding with resettlement for any designated groups. UNHCR is 
prepared to work closely with partners to further this process.
                                 ______
                                 

 Annex 1--Brief Description of the United States Resettlement Program 
                    for Unaccompanied Refugee Minors

    Several field staff recommended that the mission report include a 
general description of the specialized resettlement services available 
to unaccompanied minors to show that such resources do exist in the 
U.S. for unaccompanied youth with protection concerns and/or without 
other durable solution possibilities.

    The United States Refugee Program includes specialized resettlement 
services for unaccompanied minors. These services are provided by two 
voluntary agencies, Lutheran Immigration and Refugee Service and United 
States Catholic Conference/Migration and Refugee Service, which are 
authorized by the U.S. Department of State to resettle unaccompanied 
youth and have worked with unaccompanied refugee youth for more than 20 
years. These agencies work through licensed child welfare affiliates to 
provide appropriate support services.
    Resettlement of unaccompanied youth occurs in accordance with 
domestic child welfare guidelines, but services are only provided 
through programs specifically designed for the reception of refugee 
youth. Minors are placed in foster care or independent living 
arrangements, appropriate to the youth's developmental needs. The type 
of services available through these programs includes:

  <bullet> indirect financial support for housing, food, clothing, and 
        other necessities
  <bullet> meddical care
  <bullet> assistance of a social worker
  <bullet> independent living skills training (i.e. consumer/budgeting 
        skills, housing, food preparation, social and legal systems, 
        transportation, education, community resources)
  <bullet> education/English as a Second Language (ESL)/tutoring
  <bullet> job skills training and career/college counseling
  <bullet> mental health services
  <bullet> on-going family tracing, where possible
  <bullet> cultural activities/recreation
  <bullet> special educational services, where appropriate
  <bullet> legal assistance

    Youth who enter the United States prior to age 18 can remain in 
foster care/independent living until they complete high school or reach 
20-21 years of age (depending upon particular state emancipation 
guidelines.) These services are funded through the Office of Refugee 
Resettlement of the United States Department of Health and Human 
Services.
    Foster care placements are based on the individual needs of a 
particular youth, with attention to the cultural, linguistic, and 
religious background of a youth; special health, educational, and 
emotional needs; as well as the personality, temperament and opinions 
of the youth. Foster parents must be licensed by their state or county 
child welfare provider and receive on-going training in child welfare 
matters. Foster parents come from a diversity of ethnic and linguistic 
backgrounds, and they receive special training on the adjustment needs 
of refugee youth.

              Annex 2--Itinerary of the Mission To Kakuma




Monday 29 June:                             Meeting with UNHCR
                                             Representative; Briefings
                                             by UNHCR Protection and
                                             Durable Solutions Units;
                                             Meetings with Radda Barnen,
                                             UNICEF/Operation Lifeline
                                             Sudan, International Rescue
                                             Committee, ICRC, Save the
                                             Children/UK.
Tuesday 30 June:                            Arrival in Kakuma, Briefing
                                             by Head of Sub-Office and
                                             UNHCR staff.
Wednesday 1 July:                           Meetings with Lutheran World
                                             Federation, IRC and
                                             National Council of
                                             Churches/Kenya concerning
                                             all aspects of programming
                                             targeting the minors and
                                             young adults. Meeting with
                                             the Kenyan Red Cross on
                                             tracing and Red Cross
                                             Message activities.
Thursday 2 July:                            Meeting with agencies in
                                             Lokichoggio (UNHCR
                                             Reception/Transit Center
                                             and ICRC Hospital). Attend
                                             Peace Education Workshop
                                             with refugee youth.
Friday 3 July:                              Meetings with Chairmen and
                                             Community Leaders of the
                                             Dinka and Nuer communities
                                             in Kakuma camp.
Saturday 4 July:                            Meetings with LWF
                                             representative responsible
                                             for psycho-social care;
                                             with Jesuit Refugee
                                             Service; and with Lopit
                                             youth and caretakers.
Monday 6 July:                              Meetings with UNHCR
                                             Community Services Field
                                             Officer and the UNHCR
                                             Consultant Responsible for
                                             Peace Education. Meetings
                                             with Nuer caretakers and
                                             refugee youth in group
                                             care.
Tuesday 7 July:                             Meeting with Dinka youth in
                                             foster care and group care.
Wednesday 8 July:                           Meeting with agencies in
                                             Lokichoggio (UNICEF/OLS,
                                             Radda Barnen, and ICRC) and
                                             with Sudanese religious
                                             leaders.
Thursday 9 July:                            Meeting with JRS and Don
                                             Bosco staff in Kakuma.
                                             Debriefing at UNHCR Sub-
                                             Office in Kakuma. Return to
                                             Nairobi.
Friday 10 July:                             Report writing.
Monday 13 July:                             Meetings with Radda Barnen
                                             and ICRC in Nairobi.
                                             Debriefing at UNHCR.
Tuesday 14 July:                            Meetings with LWF Program
                                             Coordinator and New Sudan
                                             Council of Churches. Report
                                             writing.
Wednesday 15 July:                          Meeting with Joint Voluntary
                                             Agency (Church World
                                             Service).
Thursday 16 July:                           Preparation of draft report.



    Senator Abraham. Mr. Deffenbaugh.

            STATEMENT OF RALSTON H. DEFFENBAUGH, JR.

    Mr. Deffenbaugh. Thank you, Mr. Chairman. It is a great 
honor to be able to testify again before this subcommittee, and 
I must say, particularly a privilege today to be included in 
testimony along with such noble people as we have heard. Thanks 
for that privilege.
    Senator Abraham. Thank you for being here.
    Mr. Deffenbaugh. I testify today on behalf of the 
InterAction Committee on Migration and Refugee Affairs, which 
includes all of the national voluntary agencies which are 
involved in working with the U.S. Government in partnership in 
the rescue, processing, and resettlement of refugees. I want to 
also associate myself fully with the remarks of Bishop 
DiMarzio.
    One unfortunate lesson that we have learned in the 1990's 
in terms of U.S. refugee policy is that the United States has 
sent negative signals to the world in terms of whether we are 
open to receiving refugees. The chart, of course, showing the 
annual refugee admissions numbers during the 1990's shows that 
quite vividly, with the 41 percent decline, from 132,000 in 
fiscal year 1992 to the level of 78,000 in fiscal year 1999.
    Another very negative signal, of course, was that of the 
immigration law of 1996 and the extreme restrictions that were 
placed on asylum seekers, that other stream of refugees who 
come to our country.
    I want to express deep appreciation for your leadership and 
that of Senator Kennedy and Senators Hatch and Leahy on the 
full committee in urging a more open door for refugees and in 
urging the administration to increase refugee admissions 
numbers and to protect asylum seekers. We are grateful for that 
leadership and hope that we can do whatever possible to support 
you in those efforts.
    I also, though, in fairness and with great happiness want 
to give a word of gratitude for the statement we heard today 
from Secretary Taft that the numbers will be increased to 
90,000 in the coming fiscal year. That is an important step in 
the right direction. We hope it will continue.
    Also, hats off to the administration for the way the Kosovo 
resettlement was handled. It could have been Guantanamo, it 
could have been Guam; it was not, it was Fort Dix. It could 
have been a special sort of Rube Goldberg status set up for 
those refugees, and said, no, they were admitted as refugees 
with the right to then choose in dignity whether they wished to 
stay or whether they wished to return to Kosovo and the 
resettlement systems were put in place. Hats off. It was a job 
well done for the administration.
    I wish to just in the remaining time highlight a few of the 
points from the written testimony, and, of course, if I may 
submit the written testimony for the record, along with the 
full admissions document that we have prepared.
    Senator Abraham. Sure.
    Mr. Deffenbaugh. First, in terms of relations with the 
UNHCR, the U.S. Government has done a fine job this decade in 
helping to strengthen the resettlement section of UNHCR. That 
section is now vital and working well. It was not a few years 
ago. The reason it is working well now is in large part because 
of U.S. pressure, leadership, and funding for that.
    However, we need to sustain that effort, and in particular, 
we need as a United States to respond favorably when UNHCR 
makes special requests of us. Recently, it has been 
disappointing to us to see that the United States has dragged 
its feet on responding to special UNHCR requests for the 
resettlement of an additional 5,000 Bosnian refugees out of 
Germany, as well as 9,000 Somali Bantu or Mushunguli refugees 
who are now in Kenya. We hope that the United States will 
respond more expeditiously to those special requests.
    Also, then, on the principle of family unity, we heard the 
interchange with Secretary Taft about the so-called priority 
four refugee admissions. I must say I am disappointed to hear 
that in the aim of having consistency within the refugee 
program that we should move to a lower common denominator of 
admissions, and because we do not admit grandparents or adult 
children or siblings of refugees from countries other than 
Bosnia, that we should, therefore, exclude the Bosnian refugees 
who have that family relationship.
    We believe strongly that that P-4 category should be 
extended to all refugees, and we believe, in fact, that the 
principle of family unity is one which is an important 
humanitarian value which Americans share and which makes for 
good resettlement. It is not necessarily leading to a broader 
immigration program because these people must still go through 
a refugee interview and show that they do qualify as refugees 
and have the well-founded fear of persecution. It is not that 
they are not refugees. The question is just who will get a 
chance to be interviewed for admission to the United States.
    I want to associate myself with Mr. DiMarzio's comments 
about refugee women at risk and the unaccompanied refugee 
minors. These tend to be neglected groups of refugees and who 
are sometimes, unfortunately, neglected even in our refugee 
program. There have been some good efforts recently with UNHCR, 
the State Department, and the voluntary agencies for the 
increased admissions of these groups. These efforts need to be 
sustained.
    Internally displaced persons now have no access to U.S. 
resettlement in general. We would like to see us look at the 
model of programs like that of Canada, where in certain 
circumstances internally displaced can be resettled.
    Finally, the relationship between resettlement and first 
asylum. We hope that movements will continue in the Congress to 
amend some of the harsher provisions of the 1996 law as they 
relate to expedited removal, to denials of asylum claims 
because they may not have been filed within a year, to some of 
the policies of denying work authorization for asylum seekers, 
and particularly the detention of asylum seekers. I think, 
frankly, it is shocking that in this land in which all of our 
coins say ``liberty,'' we proclaim that value, that people who 
flee to our country seeking liberty we lock behind bars while 
we make decisions about their claims.
    We have decided at voluntary agencies this year not to try 
to articulate a magic total refugee admissions number. We are 
glad, as I said, the administration now plans to increase 
admissions. We hope that the admissions level will continue to 
rise in years to come. We believe that the welcome of the 
United States toward refugees is a generous and open one and we 
can do more. Thank you.
    Senator Abraham. Thank you.
    [The prepared statement of Mr. Deffenbaugh follows:]

           Prepared Statement of Ralston H. Deffenbaugh, Jr.

                    introduction--the kosovo context
    Senator Abraham, Senator Kennedy, Members of the Subcommittee, I am 
honored to be here today to present the testimony on refugee admissions 
for Fiscal Year 2000 on behalf of InterAction's Committee on Migration 
and Refugee Affairs (CMRA). The CMRA is the coalition of national 
refugee advocacy agencies, including all of the national voluntary 
agencies, which work in partnership with the United States government 
in the rescue, processing and resettlement of refugees.
    One lesson learned from the recent crisis in Kosovo is that United 
States leadership is essential to promoting international refugee 
protection. If we expect other countries to accept refugees for first 
asylum and for resettlement, the United States needs to set an example. 
Unfortunately, since 1993 the United States has set an example of 
slowly closing the door. The Illegal Immigration and Immigrant 
Responsibility Act of 1996 (IIRIRA), together with recent Immigration 
and Naturalization Service (INS) regulations, have sent a message to 
the rest of the world that asylum seekers and refugees are no longer 
welcomed here. This undesirable signal has been re-enforced by the 
Administration's decision to decrease refugee admissions by 40 
percent--from 132,000 in Fiscal Year 1993 to 78,000 in Fiscal Year 
1999.
    InterAction's Committee on Migration and Refugee Affairs urges the 
United States to revive its leadership by example. We urge the 
Administration to increase refugee admissions to earlier levels, as has 
been repeatedly advocated by the leadership of the Senate Judiciary 
Committee and the Immigration Subcommittee--Senator Hatch and Senator 
Leahy, Senator Abraham and Senator Kennedy. CMRA respectfully requests 
the Clinton Administration and Congress to restore refugee admissions 
to no less than 132,000--the admissions level which was in place at the 
time of President Clinton's first inauguration. We also call upon 
Congress and the President to commit themselves to reversing the damage 
that has been done to our nation's tradition of political asylum.
    The United States government, however, deserves praise for the 
leadership, flexibility, and creativity that it has recently exhibited 
in its refugee policy as applied to Kosovo. The decision to offer safe 
haven to an initial group of 20,000 refugees in need of protection; the 
promise to facilitate and fund voluntary repatriation for those 
refugees given safe haven in the United States when and if they wish to 
return to Kosovo; the abandonment of the plan to erect a ``holding'' 
camp in Guantanamo Bay, Cuba in favor of setting up a processing camp 
in Fort Dix on U.S. soil; the swift response of the United States to 
the need to facilitate evacuations from Macedonia; and the long hours 
and hard work of the employees of the Department of State Bureau for 
Population, Refugees and Migration (PRM), the Immigration and 
Naturalization Service (INS), and the Office of Refugee Resettlement 
(ORR) in the Department of Health and Human Services (HHS), are all 
strong signals that the Administration has revitalized its commitment 
to refugee protection and resettlement.
    We hope that this renewed leadership will be extended to non-
Kosovar refugees who do not currently have access to the U.S. program, 
but for whom resettlement would be a viable durable solution.
  the united states and others must do more to sustain united nations 
 high commissioner for refugees (unhcr) recent progress in resettlement
    For many years, the predominant view in the institutional culture 
of the United Nations High Commissioner for Refugees (UNHCR) was that 
resettlement was the ``least desirable durable solution'' for refugees 
(the ``preferred'' solutions being voluntary repatriation and local 
integration of refugees). Indeed, resettlement may be undesirable for 
those refugees who have found temporary asylum and still have reason to 
hope that they can soon return home.
    In many refugee situations, however, there comes a time that 
refugees realize they will not be able to repatriate for years, if at 
all. Nor is local integration a possibility in an increasingly 
restrictive world. The sad reality is that there is a de facto fourth 
``durable solution''--indefinite limbo status without access to any of 
the three durable solutions. Once it becomes evident that their 
foreseeable future will be spent languishing in camps or in urban areas 
in an illegal or temporary status, many refugees decide they cannot 
sustain this much longer. For their physical safety and psychological 
well being, they would prefer to be permanently resettled in a third 
country.
    The UNHCR Resettlement Section in Geneva, under the leadership of 
Mr. Shelly Pitterman, deserves great credit for the progress the UNHCR 
has made in working with resettlement countries to promote resettlement 
as a durable solution. In recent years, aided by the invaluable new 
UNHCR Resettlement Handbook and resettlement workshops that the 
resettlement section has convened throughout the world, the UNHCR has 
actively promoted and greatly enhanced the effectiveness and use of 
resettlement as a tool of international protection. Resettlement 
remains the ``least available'' of the durable solutions but is no 
longer referred to as the ``least desirable.''
    It is our hope that the UNHCR Resettlement Section in Geneva will 
continue its efforts to encourage field staff to refer refugees for 
resettlement when it becomes evident that neither voluntary 
repatriation nor local integration is imminent. Resettlement countries 
such as the United States, however, now need to do more to ensure that 
the UNHCR's resettlement efforts continue to move forward. For example, 
there have been instances, where INS has denied significant percentages 
of caseloads referred by the UNHCR. In too many instances, there may be 
a lack of communication between the U.S. government and the UNHCR at 
the field level, and the UNHCR is perplexed as to why cases which they 
found so compelling are denied refugee status by the United States. 
This discourages future referrals from the UNHCR. The United States and 
other resettlement countries must make a more proactive and sustained 
field effort to inform the UNHCR about their respective refugee 
adjudications procedures, both generally and in specific cases. 
Resettlement countries should also continue to provide the UNHCR with 
resources, particularly in terms of funding protection officer 
positions, resettlement training, and a staff secondment program, in 
order to encourage and improve resettlement referrals from the UNHCR.
    Likewise, while the United States refugee resettlement program has 
increased demands on the UNHCR to produce more and more individual 
cases for refugee resettlement, the slow pace of U.S. processing has 
precluded UNHCR from referring urgent protection cases to the program. 
We applaud the United States recent decision to allow Kosovar Albanians 
who were quickly evacuated from Macedonia after a cursory refugee 
interview to complete their refugee processing in the United States. We 
urge the United States and other resettlement countries to extend 
similar expedited procedures to other refugees with immediate 
protection and resettlement needs.
    Similarly, in the past year the United States has also sent mixed 
signals to the UNHCR concerning its desire to accept ``durable 
solution'' cases for resettlement. For example, early this year the 
UNHCR sent letters requesting that the United States process an 
additional 5,000 Bosnian refugees out of Germany, as well as 9,000 
Somali Bantu (Mushunguli) refugees in the Dadaab Camps in Kenya, for 
whom voluntary repatriation and local integration are not foreseeable. 
The United States has not yet acted on the six-month-old request on the 
Mushunguli, but promptly issued a written rejection of the request for 
the resettlement of the Bosnian refugees. While the United States has 
now informally indicated that it may ultimately accept nearly 5,000 
additional Bosnian refugees, as requested, such mixed signals from a 
major resettlement country threaten UNHCR's ability to sustain the 
significant progress which the resettlement countries and the UNHCR 
have made in recent years in their joint resettlement efforts.
    Consequently, we urge the United States to set an example for the 
rest of the world by enhancing its resettlement capacity. This would 
encourage the UNHCR to initiate referrals of more sizable groups (such 
as the Mushunguli and Bosnian refugees, or the ``Lost Boys'' group of 
Sudanese youth in Kenya's Kakuma camp) for whom resettlement appears to 
be the best durable solution. With its limited resources and 
overwhelming protection and assistance needs, the UNHCR cannot 
reasonably be expected to be the primary gatekeeper for the admissions 
programs of major resettlement countries. Such group designations are a 
more efficient, and useful, way for UNHCR to assist refugees in need of 
resettlement and those countries that are willing to accept them. The 
responsibility of individual referrals, on the other hand, should be 
shared by the UNHCR and NGO refugee processing agencies using criteria 
(such as the Priority Two) developed with PRM.
    Finally, the United States should re-enforce efforts by the UNHCR 
to open resettlement opportunities to new populations of refugees for 
whom this durable solution was, in spite of needs, not previously 
considered. For example, UNHCR's recent initiative to promote 
consideration of resettlement for durable solution cases in the Middle 
East and the Newly Independent States (NIS) requires support from the 
resettlement countries. Words of support, however, need to be 
supplemented by action. Resettlement countries should ensure that in 
the NIS, officials are available to adjudicate refugee claims at sites 
accessible to refugees and with the case support necessary to carry 
refugees through the process. The U.S. program now requires that 
refugees residing in any of the fifteen NIS states travel to Moscow for 
their interview (though such travel may not even be permitted by the 
Russian Federation) and provides refugees with no caseworkers to assist 
them with the application. The NIS initiative, and others like it, will 
not succeed unless the United States and other resettlement countries 
are willing to provide their programs with more resources and 
flexibility.
                     the principle of family unity
    In spite of the positive approach taken by the UNHCR Resettlement 
Handbook on the issue, the Administration has become increasingly 
critical of ``family'' refugee categories. Some of these critics assert 
that the family categories transform the refugee programs into an 
immigration program, rather than one of rescue. Indeed, last year the 
United States eliminated the Priority Five category altogether (for 
cousins, aunts and uncles) and has now indicated it intends to sunset 
Priority Four (grandparents, grandchildren, married sons and daughters, 
and siblings) processing as well. This does not mean that the UNHCR 
cannot refer such relatives, only that such refugee applicants will not 
be interviewed by INS unless the UNHCR refers them for an interview or 
unless the relatives happen to fall into a category which makes them of 
special concern to the United States.
    An applicant for resettlement who is seeking to join a relative 
must still establish that he/she meets refugee criteria, such as that 
he/she has a well-founded fear of persecution based on race, religion, 
membership in a particular social group, political opinion, or 
nationality. He/She is every bit a refugee. Furthermore, he/she is a 
refugee with a family in the resettlement country who can assist him/
her in building a new life. Family based resettlement is good refugee 
policy, and should be sustained. Finally, and perhaps most importantly 
is the vital humanitarian principle of promoting family unity, a value 
which most Americans hold dear.
    The UNHCR should be encouraged to refer refugees for resettlement 
to countries where they have relatives, especially when the 
relationship would not, absent a UNHCR referral, render the applicant 
eligible for consideration for resettlement. At the same time, 
resettlement countries should respect the concept of family unity, and 
the support network which it provides newly resettled refugees, by 
looking beyond the nuclear family for relationships which render 
individuals eligible for the program without a UNHCR referral.
                         refugee women at risk
    Approximately 80 percent of the world's refugees are women and 
children, who are particularly vulnerable during upheaval and 
displacement that characterize refugee movements. Women at risk may be 
single heads of families or may have suffered rape, sexual violence, 
abuse, torture, and exploitation. The trauma of being uprooted, 
deprived of family or community support, and an abrupt change in role 
or status render some women particularly vulnerable in the country of 
origin, during flight, or in the country of asylum.
    Other leading resettlement countries, including Canada, Denmark, 
New Zealand, and Australia, have established specific programs to 
resettle women and are working with UNHCR to provide alternatives to 
women for whom return or integration in the country of asylum are not 
viable options. The United States, with its long commitment to 
defending the rights of women, should join with these countries and 
include in its resettlement efforts women who desperately need 
protection and assistance. Such women should be systematically 
identified, processed quickly, resettled, and offered the comprehensive 
psychosocial services they may need once they are resettled in the 
United States.
                      unaccompanied refugee minors
    Unaccompanied refugee minors are among the most vulnerable refugees 
and at-risk of neglect, violence, forced military recruitment, sexual 
assault and other abuses and therefore require special assistance and 
care. (UN General Assembly Resolution A/RES/53/122, 2/10/99.) Estimates 
of the proportion of refugees who are unaccompanied minors range from 
one to five percent of any refugee outflow. In some circumstances, such 
as the conflict in Southern Sudan, this proportion of unaccompanied 
minors can be greater due to the specific targeting of children for 
conscription, flight, forced servitude, or the creation of a large 
orphan population. By conservative estimate, if unaccompanied minors 
make up at least one percent of the world's estimated 13.5 million 
refugees (not including internally displaced persons), there are at 
least 130,000 unaccompanied refugee minors in the world. If we 
optimistically assume that one-third of this population will be 
reunified with family, as was achieved in Rwanda, there remain over 
85,000 unaccompanied refugee minors in need of long-term care and 
durable solutions.
    Resettling merely one percent of this residual population would be 
850 minors. Yet in Fiscal Year 1997 the United States resettled only 
one unaccompanied minor through the unaccompanied refugee minor foster 
care program, and in Fiscal Year 1998 resettled only four unaccompanied 
refugee minors. Unaccompanied refugee minors have been victims of 
neglect even in the refugee program. Efforts to overcome this neglect 
are underway at the UNHCR and the State Department. These efforts must 
be sustained and intensified.
                    the internally displaced (idp's)
    Resettlement may be the preferred solution for refugees who have 
suffered such severe levels of persecution in the past that they cannot 
face returning to their country of nationality. Unfortunately, while 
resettlement might also be the best solution for internally displaced 
persons, IDP's now have no access to the UNHCR resettlement referrals 
or, with minimal exceptions, to the U.S. resettlement program.
    We urge the United States to engage the international community on 
how resettlement countries can be more responsive to the rescue needs--
including, but not limited to, resettlement--of the internally 
displaced. We note that Canada, for example, has a small but important 
program for a limited few internally displaced Colombians affected by 
the forced displacement, human rights violations, and other pressures 
of the war. Similarly, the U.S. government rescued such victims 
directly from their countries in cases such as Chile and Argentina in 
the 1970's.
         the relationship between resettlement and first asylum
    Finally, so long as resettlement remains the ``least available'' of 
the three durable solutions, the United States must lead the 
international community by supporting its resettlement program with an 
effort to provide political solutions to permit voluntary returns and, 
equally importantly, to support and ensure the right of first asylum 
and the facilitation of local integration.
    It is well known that the United States made great efforts to 
convince Macedonia to keep its borders open for Kosovar refugees. The 
credibility of these efforts, however, was undermined by the ongoing 
deterioration of our domestic asylum policy. For example, the following 
policies have all been enacted within the last six years:

          (1) ``expedited removal'' procedures that empower low level 
        immigration inspectors to refer or summarily deport potential 
        asylum seekers and other aliens through unreviewable discretion 
        and invisible proceedings;
          (2) denials of asylum claims based solely on whether they 
        were filed in a timely fashion;
          (3) a policy of denying work authorization for asylum seekers 
        until their claims have been approved, making it unlawful for 
        them to accept employment, blocking their ability to integrate 
        or even to support themselves and their families for many 
        months;
          (4) the routine and prolonged detention of aliens in prisons, 
        even when their only ``crime'' is coming to the United States 
        to seek asylum;
          (5) the policy determination that the United States may 
        return asylum seekers without determining the validity of their 
        claims, so long as they are interdicted outside of the United 
        States;
          (6) the use of pre-flight inspection by INS at foreign 
        airports, to screen-out would-be asylum seekers before they can 
        come to the United States, thereby depriving them of any access 
        to U.S. asylum; and
          (7) a proposed INS regulation published on June 11, 1998 (63 
        Fed. Reg. 31945), which would prevent many asylum seekers from 
        being granted asylum if their claims were based on past 
        persecution or if the INS determines that they could have fled 
        within their country of persecution, rather than from their 
        country of persecution, without facing ``severe harm.''

    Refugee resettlement agencies, the UNHCR, and human rights groups 
have all submitted formal comments objecting to this proposed rule.
    On the positive side, we welcome the recent codification of the 
United States' treaty obligations under the Convention Against Torture, 
in an effort to ensure that those who have fled persecution will not be 
returned to authorities who would be likely to torture them. 
Nonetheless, this represents one bright spot on a very dim landscape.
    To reassert leadership in refugee protection, the United States 
must first restore its own commitment to the concept of first asylum 
and integration.
       the public-private partnership of the u.s. refugee program
    One of the most unique, valuable and yet challenging aspects of the 
U.S. Refugee Program is its cornerstone--the public-private 
partnership.
    Domestically, the DOS/PRM and ORR work through national voluntary 
refugee resettlement agencies to involve local community based 
organizations in personally welcoming refugees, and getting them 
acclimated to live in the United States. Overseas, DOS/PRM contracts 
with NGO partners, many of whom are known as Joint Voluntary Agencies 
(JVA's), to assist with the administration of the refugee program, and 
to prepare casework for INS adjudicators.
    In this relationship, the government closely monitors the NGO's, 
and the NGO's keep an eye on the government. The result is a refugee 
program that is uniquely transparent, extremely cost-effective, and 
community oriented and this facilitates the transition of resettlement 
for the refugee through the links of the domestic resettlement agencies 
to the JVA's overseas.
    This is not to say that the relationship is always an easy one. 
While this public-private partnership is modestly moving ahead with 
plans to establish a small NGO counseling presence in Moscow, DOS/PRM 
has decided to terminate the use of the JVA in the next phase of 
refugee processing in Vietnam. In addition, DOS/PRM decided not to use 
voluntary agencies as the JVA for processing in Albania, Macedonia, or 
Egypt.
    JVA's allow the INS to do its job better through the quality 
preparation of cases; they serve refugees by helping them articulate 
their case and making them feel more at ease for the INS interview; 
they assist the program through their ability to expand more quickly 
and cost effectively than would generally be possible with a government 
operation; and they improve the accountability of the program by 
facilitating transparency. They also save the government money. For 
these reasons, we urge the State Department to reaffirm and revitalize 
its commitment to the JVA, starting with the program in Southeast Asia, 
and to examine establishing JVA posts at new sites to facilitate UNHCR 
referrals and allow for the expansion of the very effective P-2 
processing categories.
                               conclusion
    Unlike in years past, for Fiscal Year 2000 the CMRA will not 
attempt to articulate a magic total admission level for refugees who 
need resettlement in the United States. With approximately 13.5 million 
refugees and asylum seekers and 18 million IDP's in the world, many 
more refugees could benefit from resettlement than the United States 
could process and absorb. In spite of this great need, however, the 
United States has managed down its refugee admissions program and 
reduced its commitment to resettlement by over 40 percent since 1993 
though we are hopeful that the program for Kosovar Albanians may mark 
the reversal of this trend.
    The United States still claims to be the world leader in refugee 
protection. I wish to emphasize that with tumbling refugee admissions 
and increasing restrictions on asylum seekers, how can the United 
States credibly call on other nations to do more ``responsibility 
sharing'' when it is doing so much less?
    A renewed commitment to resettle no less than 132,000 refugees, the 
level in place when President Clinton took office, together with a 
restoration of basic protections for asylum seekers in the United 
States, would demonstrate to the world that the United States is 
willing to lead by example.

    Senator Abraham. Thank you all. I just would comment on a 
couple of points that have been made by our last two panelists 
in that we, too, hope that the proposal for the 2000 fiscal 
year is, in fact, a consistent pattern, not because of the way 
it is structured. It obviously includes a substantial number of 
Kosovo refugees. We will have to wait and see. Hopefully, we 
can encourage that that be a priority, not just for 1 year but 
into the future.
    I just want to say that both of you, I think, have made 
excellent points for us to follow up on and we will try to do 
so.
    To Mrs. Kortenhoven, I just want to thank you and not just 
your church, although I am familiar with the efforts of the 
Christian Reformed Church, but of all of the church communities 
of this country who do so many things, not only to assist 
refugees for the refugee process, but also to assist people 
once they arrive here to help refugees to better assimilate and 
be able to be productive people. Whether it is the Catholic 
Church or the Christian Reformed or Lutheran Services or 
others, we really appreciate that, as well.
    The point I was hoping to make earlier when Secretary Taft 
was here is that this really is a well-coordinated process that 
we have enjoyed in this country between government 
organizations and the non-government organizations, the private 
sector, the religious community, in particular. So we really 
appreciate that, too.
    Let me just open it up, really, for one question for this 
panel, and then because of the time and the fact that I think 
we are going to have a vote fairly soon, we may have to bring 
the hearing officially to an end. But do any of you have any 
specific comments you would like to make in response to or 
relation to some of the comments that were made in the first 
panel with regard to current policy, beyond that which has 
already been stated, if there is any response or comments. We 
will start with you, Mr. Deffenbaugh.
    Mr. Deffenbaugh. Yes. Thank you very much, Senator. I think 
that Secretary Taft may have misspoken when she was responding 
to the question about circuit rides in the former Soviet Union. 
Our information is that the 7,000 individuals who were surveyed 
by the State Department had already been interviewed and 
approved by INS and that the call for circuit rides is not for 
those who have already been interviewed but for those who have 
applied and not yet been interviewed and for whom travel to 
Moscow would be either impossible or difficult. This includes 
not only those who qualify under the Lautenberg amendment, but 
also those who are referred by UNHCR. So we hope that the INS 
will be able, as Jeff Weiss said, to undertake that great 
Central Asian adventure and begin traveling to some remote 
parts of the former Soviet Union.
    Senator Abraham. That is helpful. I appreciate that 
information, because if that is the case, we will do an 
appropriate follow-up question that I will submit to try to see 
what further reply we get.
    Mr. Deffenbaugh. Thank you.
    Senator Abraham. As you know, I have asked this question 
now on more than one occasion to try to move things in that 
direction. If, in fact, the circumstances that you have just 
described are what, in fact, is the case with those 7,000, then 
I do not think we have really addressed the problem.
    Are there any other comments? Bishop DiMarzio.
    Bishop DiMarzio. I just might follow up a little bit on the 
relationship between the State Department and the joint 
voluntary agencies and the voluntary agencies in general.
    Senator Abraham. Yes.
    Bishop DiMarzio. I think, in the Kosovo situation, for 
example, the State Department chose to use the International 
Organization for Migration instead of the joint voluntary 
agencies. I think the Secretary tried to describe that because 
they are probably going to take everybody anyhow. But if this 
habit continues, we are going to run into problems, because 
what in effect happens is that the Federal Government becomes 
both the judge and the jury in the cases of adjudicating. We, 
as the voluntary agencies, serve as the jury. We try to look at 
the facts. We present the case a little bit more like lawyers, 
in fact. And then, again, the adjudication is by the INS.
    But, again, if this pattern continues, I am afraid that we 
are going to see less accuracy and less advocacy on behalf of 
the refugees if that continues. I think the relationship as the 
Secretary described it is creative tension. I think that 
already tells us something about how this is viewed. I think we 
need to improve it. I think the refugee resettlement program in 
this country could not happen without the voluntary sector and 
I think we have to go beyond creative tension to some real 
collaboration.
    Senator Abraham. Thank you. Are there any other comments?
    [No response.]
    Senator Abraham. I want to thank all of you, particularly 
you, Mrs. Bah. We appreciate you being here with us and for 
your contributions.
    We will keep the record open for other members to submit 
questions and additional statements and we will include the 
statements of everyone who is here in full.
    Thank you very much, and the hearing is adjourned.
    [Whereupon, at 3:32 p.m., the subcommittee was adjourned.]

                                <greek-d>

  

</pre></body></html>
